<html>
<title> - REVIEW OF THE NATION'S INFRASTRUCTURE SECURITY</title>
<body><pre>[Senate Hearing 107-662]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-662
 
                        REVIEW OF THE NATION'S 
                        INFRASTRUCTURE SECURITY
=======================================================================



                                HEARING

                               BEFORE THE


                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                                   ON

 ENSURING THE SECURITY, PROTECTION, AND PRESERVATION OF PUBLIC WORKS, 
        UTILITIES, AND ECONOMIC ZONES AGAINST TERRORIST ATTACKS

                               __________

                            NOVEMBER 1, 2001

                               __________

  Printed for the use of the Committee on Environment and Public Works











                       U. S. GOVERNMENT PRINTING OFFICE
81-717                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS

                  JAMES M. JEFFORDS, Vermont, Chairman

MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                            NOVEMBER 1, 2001
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    28
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     5
Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..     8
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1

                               WITNESSES

Brown, Michael, Deputy Director, Federal Emergency Management 
  Agency.........................................................    10
    Prepared statement...........................................    35
Horinko, Marianne L., Assistant Administrator, Office of Solid 
  Waste and Emergency Response, Environmental Protection Agency..    20
    Prepared statement...........................................    46
Meserve, Richard, Chairman, Nuclear Regulatory Commission........    16
    Prepared statement...........................................    42
Mitchell, Herbert, Associate Administrator for Disaster 
  Assistance, Small Business Administration......................    18
    Prepared statement...........................................    45
Moravec, Joe, Commissioner, Public Building Service, General 
  Services Administration........................................    13
    Prepared statement...........................................    38
Sampson, David, Assistant Secretary for Economic Development, 
  Economic Development Administration, U.S. Department of 
  Commerce.......................................................    15
    Prepared statement...........................................    39















                        REVIEW OF THE NATION'S 
                        INFRASTRUCTURE SECURITY

                              ----------                              


                       THURSDAY, NOVEMBER 1, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m. in room 
406, Senate Dirksen Building, Hon. Jim Jeffords (chairman of 
the committee) presiding.
    Present: Senators Jeffords, Clinton, Smith, Corzine, and 
Carper.
    Senator Clinton [assuming the chair]. The hearing will come 
to order.
    I turn first to our ranking member, Senator Smith.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you very much, Madam Chairman. I 
appreciate that. Again, I did speak privately to the witnesses, 
but I want to apologize for having to make a brief statement 
and then leave. I am going to try to get back, but at 2 o'clock 
I have three things going on at the same time. One thing none 
of us has been able to learn to do around here is be at 
different places at the same time. But I want to thank Senator 
Jeffords for conducting the hearing.
    The attacks that we all endured on September 11 and 
basically continue to endure ever since have left this Nation 
with a number of questions dealing with preparedness and 
security measures. I think I have talked to almost each and 
everyone of you personally and I want to compliment all you for 
the job that you are doing and will have to continue to do. It 
is not going to be easy. As we read the papers, we hear of more 
and more anthrax turning up in different locations in the 
country.
    We did hear from Director Allbaugh a couple of weeks ago 
about the emergency responders and about the response in New 
York and the Pentagon and what lessons were learned. Today, we 
take the next step. We want to consider whatever we can do to 
help you do your jobs better in legislative proposals. 
Obviously, you cannot sit around and wait for every legislative 
proposal; you have a job to do, and we understand that. But we 
want to try to help you in every way that we can to be better 
prepared should the unthinkable happen. That is the spirit--I 
know that Senator Jeffords would agree is the spirit of this 
hearing. There are a number of agencies within our jurisdiction 
that do play vital roles, in addition to your own.
    I am pleased that all of you could be here this afternoon. 
Assistant Secretary, Dr. Sampson, joined me about a month ago--
I guess it has been in New Hampshire, actually, it is more than 
that because it was before September 11--to discuss economic 
development options in some of the northern communities in New 
Hampshire. It is amazing how priorities have changed. We 
thought we had some terrible problems up there with the 
military closing, and they are bad, but little did we know very 
soon after that what serious problems we were going to have. A 
couple weeks ago I did meet with Mike Brown of FEMA to discuss 
some of the terrorism legislation and various pieces of 
legislation.
    I want to thank all of you for working so closely with me 
on issues of importance, not only to New Hampshire, but the 
Nation. I look forward to hearing your thoughts. I will read 
them even if I am not here to hear them, about what needs to be 
done. There are a lot of bills out there to try to help. I have 
some. I do not claim to be the authority on all of them. But we 
want to get the dialog started and the debate started.
    I hope you will all at some point in the future offer your 
views on these bills regarding such things as a coherent 
national strategy, Federal coordinating, and planning. We heard 
Director Allbaugh talk about the fact that the band of 
communications, that this is a big issue on how we communicate 
in time of emergency, everybody is on a separate radio band. We 
had a meeting in New Hampshire with the Governor about this 
issue and it came up that they were very concerned about that. 
So I think that is one issue that we are going to have to 
address. I know Senator Clinton has been working hard as well 
on legislation dealing with small businesses and others that 
were right there in the eye of the storm.
    I thank you again, Mr. Chairman, for conducting this 
hearing. I apologize to you and to the witnesses, to my 
colleagues for having to leave.
    [The prepared statement of Senator Smith follows:]

  Statement of Bob Smith, U.S. Senator from the State of New Hampshire
    Mr. Chairman, Thank you for conducting this hearing.
    The attacks of September 11, left this Nation with a number of 
questions dealing with preparedness and security measures.
    A couple of weeks ago we heard from FEMA Director Allbaugh and 
emergency responders about the response in New York and at the 
Pentagon--and what lessons were learned.
    Today we take the next step. We are here to consider legislative 
proposals not only to help prevent further attacks, but also to be 
better prepared if the unthinkable should happen again.
    This committee has a number of agencies within our jurisdiction 
that play vital roles in both security and response--and we will 
exercise our responsibility to ensure that these agencies have all the 
tools necessary to perform their jobs.
    I am pleased to welcome the witnesses here today--some of whom I 
have spent a good deal of time with recently. Assistant Secretary 
Sampson joined me about a month ago in New Hampshire to discuss 
economic development options in Berlin and Gorham.
    A couple of weeks ago I met with Mike Brown of FEMA to discuss my 
terrorism preparedness legislation and FEMA's role in terrorism 
response. Just last night I sat down with Chairman Meserve of the 
Nuclear Regulatory Commission to discuss nuclear security issues, 
especially those dealing with Seabrook Station in New Hampshire.
    I want to thank you all for working closely with me on issues of 
great importance, both to New Hampshire and the Nation. You all play 
important roles in our national preparedness efforts.
    I look forward to hearing your thoughts on our current security 
situation and what needs to be done in order for the American people to 
have the utmost confidence in this Nation's ability to protect our 
vital infrastructure against further terrorist attacks.
    As you know, I have introduced a few bills to address both security 
and preparedness/response needs.
    A terrorism preparedness bill that will: Establish the mechanism to 
create a coherent national strategy for terrorism preparedness and 
response. It will create a single Federal coordinating and planning 
office for consequence management. It will integrate both State and 
local responders in the planning and development of national terrorism 
preparedness policies.
    I have also just introduced a water infrastructure grant bill to 
provide resources in order for these facilities to take care of 
immediate security needs.
    The grants in this bill can be used for a variety of needs 
including: training programs for rural utilities, gates, security 
cameras, surveillance equipment and other needs as identified by the 
utility.
    While the Nation's utilities believe the water supplies are safe 
and measures are in place to protect from attack, we must be sure that 
every possible step is being taken to close any existing security gaps. 
This bill will help to do that.
    I have also joined Senator Inhofe in introducing a Nuclear security 
bill. I have been working with Senator Jeffords on a bill to deal with 
communication needs in time of an emergency.
    This is an issue that has consistently come up in our hearings and 
in private meetings B including a meeting I held last week in New 
Hampshire with our Governor and Federal, State and local emergency 
responders.
    I know that Senator Warner also has a strong interest in this 
issue.
    These are just a few positive steps to address security and 
preparedness needs of this Nation.
    I look forward to hearing the testimony of our witnesses in order 
to explore other avenues to provide for our Homeland Security.
    We are also here to discuss economic recovery options for the 
devastated area in and around Ground Zero in New York City. I know 
Senator Clinton has been working hard on legislation to get those small 
businesses in that area back on their feet as soon as possible. I 
visited Ground Zero shortly after the attack and can't even begin to 
describe the devastation I saw.
    One way of defeating what these terrorist stand for is to prove the 
resiliency of this Nation. The Senator from New York and people of New 
York have my commitment to help in that effort. As I told Mayor 
Giuliani at Ground Zero--``on September 11, we all became New 
Yorkers.''
    I will be working closely with the members of this committee to 
address the economic needs of those who suffered from the terrorist 
attack of September 11.
    Mr. Chairman, thank you again for holding this hearing.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords [resuming the chair]. Well, I am sorry but 
I did not get here either. So you do not have to apologize, I 
apologize to you.
    Senator Smith. I really was inclined to grab that gavel, 
but Senator Clinton got it before me.
    [Laughter.]
    Senator Jeffords. I should have known I should not have 
been concerned about being here. But anyway.
    [Laughter.]
    Senator Jeffords. Actually, we had for a luncheon speaker, 
the head of NIH and he was telling us all about anthrax and who 
ought to be in charge. So I got a little carried away. I was 
listening and suddenly I was reminded that I was not where I 
was supposed to be. So, I apologize for that. But, here I am. I 
will make my opening statement now and we will get on.
    I especially want to thank the witnesses from the various 
Federal agencies for appearing here today and look forward to 
hearing from all of you.
    Tuesday night, I watched game three of the World Series. As 
I watched the game, I was heartened by the pictures of faithful 
fans cheering their beloved teams and a tattered flag flapped 
in the breeze in the outfield, the same flag that had been 
pulled from the rubble of Tower 2, 3 days after the World Trade 
Center disaster. During the seventh inning stretch, the Anthem 
``God Bless America'' replaced the familiar refrain of ``Take 
Me Out To The Ball Game.'' On the field in storied Yankee 
Stadium in the grand old city, two teams competed in the Fall 
Classic. As I marveled at the sights and sounds, I was overcome 
with the feeling that through our collective efforts as a 
Nation, we will overcome this very sad chapter in our history.
    But the healing journey will not be an easy one. Many 
additional responsibilities have been thrust upon each of us by 
this change. A successful journey to recover will require 
citizens and communities across America to come together, to 
lend a helping hand and to strengthen the feeble knees. While 
we take our journey as a Nation, we must not forget the 
horrible events of September 11 or the people directly affected 
by those attacks.
    It is in this spirit that we gather here today to discuss 
various legislative proposals to aid the victims of these very 
tragic events. I would like to acknowledge Senator Clinton's 
tireless efforts to address and to anticipate the needs of 
citizens affected by this tragedy. You have done a great job 
and I would like to let everybody know. The Senator has 
listened to her constituents, she has worked with the city and 
the State officials, and she has put forward credible proposals 
worthy of our serious and expedited attention. I trust that we 
will have a candid and forthright discussion of these 
proposals.
    A successful journey to recover will also require improved 
critical infrastructure security. Just yesterday I heard about 
a recent event at a Florida chemical storage facility which 
underscores this point. I was alarmed and, quite frankly, a bit 
incredulous to learn that only a few days ago a significant 
quantity of lethal pesticide methyl bromide was stolen from a 
Florida chemical storage facility. Apparently, the thieves 
absconded with the poison through a hole cut in the facility's 
fence while security personnel stood guard. How could this 
happen? This is unacceptable. We must act.
    I applaud Senator Corzine for recognizing the need for 
improved chemical site security and for introducing legislation 
to attempt to remedy the problem. You were right on cue. Thank 
you. I look forward to an open and honest debate on the 
subject, and I look forward to a meaningful discussion on how 
we can improve the security of our Nation's water supply, 
nuclear facilities, and Federal buildings.
    I also want to thank my good friend Senator Smith and his 
staff for the help and the cooperation over the last several 
weeks. We have travelled together to the World Trade Center, we 
have seen the devastation, and we share a commitment to help 
this Nation heal.
    Speaking to a group of young Americans just after the turn 
of the 20th century, Mark Twain advised, ``Always do the right 
thing. This will gratify some and astonish the rest.'' As this 
legislative session draws to a close, let this committee do the 
right thing. Let us work in a bipartisan and timely fashion to 
aid victims of the recent terrorist attacks on our soil and to 
take the necessary steps within the committee's jurisdiction to 
improve the Nation's critical infrastructure security.
    Our national journey to recovery may be a long one. But if 
we join together as an American family, I am confident we can 
make it. Thank you very much.
    [The prepared statement of Senator Jeffords follows:]
   Statement of Senator Jim Jeffords, U.S. Senator from the State of 
                                Vermont
    Tuesday night I watched Game 3 of the World Series. As I watched 
the game, I was heartened by the pictures of faithful fans cheering 
their beloved teams. A tattered flag flapped in the breeze in the 
outfield, the same flag that had been pulled from the rubble of Tower 
2, 3 days after the World Trade Center disaster. During the 7th winning 
stretch, the anthem ``God Bless America'' replaced the familiar refrain 
of ``Take Me Out To The Ballgame.'' On the field, in storied Yankee 
Stadium, in that grand old city, two teams competed in the Fall 
Classic. As I marveled at the sights and the sounds, I was overcome 
with the feeling that with our collective efforts, as a Nation we will 
overcome this sad chapter in our history.
    But the healing journey will not be an easy one. Many additional 
responsibilities have been thrust upon each of us by change. A 
successful journey to recovery will require citizens in communities 
across America to come together, to lend a helping hand, and to 
strengthen feeble knees. While we take our journey together as a Nation 
we must not forget the horrible events of September 11 or the people 
directly affected by the attacks. It is in this spirit that we gather 
here today to discuss various legislative proposals to aid the victims 
of these tragic events. I would like to acknowledge Senator Clinton's 
tireless efforts to address, and to anticipate, the needs of the 
citizens affected by this tragedy. The Senator has listened to her 
constituents, she has worked with the city and State officials, and she 
has put forward credible proposals worthy of our serious and expedited 
attention. I trust that we will have a candid and forthright discussion 
of these proposals.
    A successful journey to recovery will also require improved 
critical infrastructure security. Just yesterday, I heard about a 
recent event at a Florida chemical storage facility which underscores 
this point. I was alarmed, and quite frankly a bit incredulous, to 
learn that only a few days ago a significant quantity of the lethal 
pesticide methyl bromide was stolen from a Florida chemical storage 
facility. Apparently, the thieves absconded with the poison through a 
hole cut in the facility's fence while security personnel stood guard. 
How could this happen?
    This is unacceptable. We must act. I applaud Senator Corzine for 
recognizing the need for improved chemical site security and for 
introducing legislation to attempt to remedy the problem. I look 
forward to an open and honest debate on the subject. I also look 
forward to a meaningful discussion of how we can improve the security 
of our Nation's water supply, nuclear facilities, and Federal 
buildings.
    Speaking to a group of young Americans just after the turn of the 
20th Century Mark Twain advised, ``Always do right--this will gratify 
some and astonish the rest.'' As this legislative session draws to a 
close, let this Committee do the right thing. Let us work in a bi-
partisan and timely fashion to aid the victims of the recent terrorist 
attacks on our soil and to take the necessary steps within this 
Committee's jurisdiction to improve this Nation's critical 
infrastructure security.
    Our national journey to recovery may be a long one, but if we join 
together as an American family, I am confident we can make it.

    Senator Jeffords. We will now proceed.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman. I thank you and 
our ranking member and your staffs for the extraordinary 
support, both personally and officially, that you have provided 
to New York and to me. I would like to thank all the agencies 
represented here who have done a very commendable job in 
working to ensure that we recover and rebuild after the 
horrific attacks on our Nation.
    I have to say that we in New York, and there is a 
delegation of business and labor and elected officials who have 
been making the rounds talking to Senators and House Members on 
both sides of the aisle, are in an awkward and somewhat 
challenging position. On the one hand, we are resilient--the 
Yankees are going to win the series again----
    [Laughter.]
    Senator Clinton. Everyone is doing their very best to have 
the stiffest possible upper lip in the face of the 
extraordinary damage that we have suffered. If you go back to 
Ground Zero, you know that the fires are still burning, the 
impact of the devastation is beyond our understanding and very 
difficult for us to fully calculate even at this time. We have 
almost one million tons of rubble still awaiting removal 
despite the extraordinary efforts that have already been 
undertaken to remove tens and hundreds of thousands of tons. We 
know we are in for quite a long recovery period.
    In speaking with many of my constituents, there are a 
number of issues that I have raised, and I appreciate very much 
the work that some of you have done in a short period of time 
to respond to these ideas, because there are gaps that are 
difficult for us to fill under existing legislative authority. 
I have no pride of authorship; I am just looking for solutions. 
If we can enhance discretionary authority, if we can create new 
vehicles by amending the Stafford Act or looking at EDA or CDBG 
more creatively, we can solve these problems, that is what we 
are looking for. I just want to quickly run through four that I 
have seen.
    One is that now that people are coming out of their shock 
and denial, we are faced with a lot of very serious issues 
concerning the children who have been directly affected. I have 
proposed creating a Children's Coordinating Office within FEMA 
to pay particular attention to the needs of children who have 
lost one or both parents. We are only now beginning to assess 
what that would include, whether there would be need for mental 
health services, guardianships, temporary care services, but, 
clearly, we need more of a focus that we particularly pay 
attention to children who do not have adult representatives or 
advocates who can speak for them.
    The second issue is to track the health of the victims, 
volunteers, and workers who have been exposed to harmful 
substances. This would amend the Stafford Act to allow for this 
kind of health protection assessment and monitoring. We have 
been monitoring the air and I am very confident that the 
results that we are getting which demonstrate that there are 
not broadscale problems with the air are absolutely accurate. 
But no one argues that right there on the site there are 
problems and those problems are intense. We have had some 
people working in that rubble now for nearly 2 months. They 
have worked day and night, many of them have been exposed to 
the air. We are now hearing something colloquially referred to 
as the Trade Center cough because it has been reported that 
11,000 firefighters have worked at Ground Zero, almost 4,000 
are being treated with steroid inhalers for severe coughs.
    Under the amendment I have proposed to the Stafford Act, 
FEMA would carry out an outreach education, protection, and 
monitoring program based upon a determination by the President 
that harmful substances have been released into a disaster 
area. We need to track these workers, we need to get the best 
possible baseline, and then we need to act to help them with 
their health issues.
    The third issue is an unemployment assistance bill, which 
would extend unemployment assistance under the disaster as 
provided by the Stafford Act for an additional 26 weeks, for a 
total of 52 weeks, for any individual eligible to receive DUA 
as a result of the attacks. Thousands of individuals have 
become unemployed because their businesses no longer exist, or, 
frankly, because their businesses, even if they are up and 
going, are not only in a disaster zone but in a crime scene 
zone and people cannot get to them because of the police 
barricades and the difficulty of knowing what streets are open 
when.
    Currently, nearly 25,000 individuals have applied for 
disaster unemployment. The applicants are expected to grow. We 
have to really take care of these people. That is something 
that I feel very strongly about. We need to help them go 
through this transition, hopefully by some other means get 
these businesses up and going and they can return to work.
    That brings me to my final proposal. I believe we should 
establish an Office of World Trade Center Attack Claims. We did 
lose nearly 25 million square feet of office space, we have 
displaced 850 businesses, we have displaced over 125,000 
people, and access has been denied to 9,000 other businesses 
partly because of the crime scene designation and the debris 
removal efforts. Senator Schumer and I are introducing this 
bill to help address the needs of businesses that cannot apply 
for the existing SBA loans. They do not know if they are going 
to be in business in 6 months. Even if it is a 0 percent 
interest rate loan, they do not feel that they can sign for it.
    This proposed Office of World Trade Center Attack Claims is 
modelled after, though much narrower, the Office of Cerro 
Grande Fire Claims that was created in response to the New 
Mexico fires last year. The Cerro Grande model has been proven 
to work. As of this past August, the Office of Cerro Grande 
Fire Claims has processed and awarded more than 13,700 claims 
totaling over $207 million.
    Based on the lessons we have learned, we have worked 
significantly to limit the scope of this proposed office, both 
in terms of eligible claimants and eligible injuries for 
reimbursement. This obviously would come, if we were to 
authorize it, out of the $20 billion that has already been set 
aside and supported by the President for disaster recovery and 
assistance efforts. We would be seeking to use between $1 and 
$2 billion of that $20 billion for this office. By comparison, 
$455 million was appropriated for the Cerro Grande fire claims 
office.
    I believe that these steps are very important and help to 
authorize authority and plug some of the gaps that we have 
found now that we are on the ground trying to help people 
exist. I very much appreciate the extraordinary help that we 
have received from this staff, Mr. Chairman. They have really 
helped us work through this. I look forward to hearing from our 
witnesses any ways that we can, either within the existing 
legislation or through the ideas that I am proposing, help 
create some solutions for the problems that we still find. 
Thank you very much.
    Senator Jeffords. Thank you very much. Very excellent 
statement.
    Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman. I, too, want to 
congratulate you on holding this hearing on economic recovery 
and infrastructure security. There is hardly anything that 
captures the public's imagination save anthrax I think more 
than making sure that we put in proper position the everyday 
lives that we are now operating with.
    This has obviously taken a huge toll, as Senator Clinton 
has talked about, at the epicenter of this in New York City. I 
support wholeheartedly all of the efforts that are now working 
their way through our processes here to make sure that they are 
appropriately addressed. I do want to make sure that people 
also understand that there is a metropolitan community 
surrounding New York City and a number of the communities in 
northern New Jersey, in particular, deeply impacted with regard 
to human loss, and certainly some of the economic issues that 
Senator Clinton outlined have major impact on small business, 
in particular, in our communities.
    The Federal Government has a large role to play here. FEMA 
has done an outstanding job in spearheading this, but some of 
the rules that surround FEMA do not bite necessarily 
effectively with regard to a number of the problems that have 
come up, whether it is in New York or small businesses on the 
west side of the Holland or Lincoln Tunnel that are impacted 
almost as seriously by the lack of attention that comes out of 
the way the Stafford Act is structured. I think there is a real 
need for us to go back and parse through that to make sure that 
necessary changes are put in place to deal with a different 
kind of attack, just as we are dealing with a different kind of 
war. I certainly intend to support Senator Clinton's and the 
chairman's proposals in this regard, and I look forward to 
working with them and staff to make sure that they truly meet 
the needs of post-September 11.
    With regard to infrastructure, as I said, I think this is 
one of those things that the public is looking to all of us as 
public officials to bring greater elements of security to the 
potential targets. Whether that is our water systems, nuclear 
power plants, chemical facilities, natural gas pipelines, 
whatever the issues that could be specific vehicles for a 
terrorist attack, I think we are remiss if we do not make sure 
that we have in place the kinds of quality checks and balances 
to make sure that these are secure.
    In that vein, yesterday, along with the partnership of the 
chairman and Senator Clinton, I introduced legislation that 
addresses one of these problems which was a serious issue 
before we contemplated terrorism, and that is threats to our 
chemical processing and distribution infrastructure. It is a 
serious issue. We have had a number of tragic accidents in New 
Jersey itself through history that have cost life and there is 
a very recent example in France which cost almost 180 lives. I 
think we need to make very clear that this is something that 
needs to be addressed. I think our legislation and staff has 
been able to come up with an act that I think will be not too 
heavy-handed but definitely proactive in moving us forward. I 
look forward to working with the chairman and the committee to 
make sure we get this in ship shape and move it forward.
    Again, I think what you are doing here and the kinds of 
suggestions that are here in the committee are terrific steps 
forward and do a lot to bring both public confidence and also 
deal with the enormity of the tragedy that occurred on 
September 11 in New York City. So, thank you for having this 
hearing, and I look forward to hearing from the witnesses and 
appreciate their efforts in preparation. Thank you.
    [The prepared statement of Senator Corzine follows:]
 Statement of Jon S. Corzine, U.S. Senator from the State of New Jersey
    Thank you, Mr. Chairman, for holding this important hearing on 
disaster recovery and infrastructure security. The events of September 
11 have taken a huge toll on our Nation. Everyone has been impacted, 
and these impacts are particularly acute around the Pentagon and in the 
New York metropolitan area, which includes many New Jersey communities.
    The Federal Government has a major role to play in helping these 
communities get back on their feet. FEMA has spearheaded this effort, 
and I appreciate their hard work under difficult circumstances. I think 
that they have tried hard to work within the confines of the Stafford 
Act. But the Act did not contemplate the scope of this disaster or the 
unique challenges that it poses. So I think changes are necessary to 
make the Federal Government's response more effective. I support 
Senator Clinton's and Senator Jeffords proposals in this regard. I ask, 
however, that they will be willing to work with me to ensure that these 
proposals are responsive to the needs of New Jersey businesses, many of 
which literally operated in the shadows of the World Trade Center.
    With respect to infrastructure security, I think we all recognize 
that our Nation's assets now need to be considered targets. We need to 
assess the potential threats to our water systems, nuclear power plants 
and chemical facilities and get on with the business of making them 
more secure. Staying ahead of the curve on these issues will be 
critical to preventing new types of terrorism from occurring. As we 
respond to the acts of terrorism that have already taken place, we need 
to anticipate and address a range of problems.
    Yesterday, I introduced legislation that addresses one such 
problem-threats to our chemical processing and distribution 
infrastructure. The bill would give the Administration new tools to 
help secure these assets against terrorist acts. Recent reports of the 
theft of methyl bromide, a highly toxic pesticide, from a Florida 
manufacturing facility underscore the need to act on this front. 
Senator Boxer and Senator Chafee have agreed to hold a hearing on this 
legislation next Wednesday, and I thank them for agreeing to this 
hearing on short notice. I think we need to act, and I pledge to work 
with my colleagues on the committee, the Administration, and industry 
to come up with proactive solutions. Thank you, Mr. Chairman.

    Senator Jeffords. Thank you for your excellent statement.
    I also want to thank my staff who have put together the 
hearing today and moving us into this very important and 
essential area.
    I also want to thank Mr. Brown especially. I had an 
opportunity to work with you and all of the FEMA staff both at 
the Pentagon and back in New York City and observe the amazing 
cooperation I found, which is so much due to your leadership, 
of the coordination of the local communities as well as the 
Federal Government. It is just a wonderful experience to watch 
you all operate. I appreciate that.
    Mr. Brown. Thank you, Mr. Chairman.
    Senator Jeffords. Mr. Brown, please proceed.

STATEMENT OF MICHAEL BROWN, DEPUTY DIRECTOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Brown. Thank you, Mr. Chairman, Senator Corzine, and 
Senator Clinton. I am very pleased to be here this afternoon on 
behalf of Director Allbaugh. Today I want to reiterate a couple 
of points that the Director made during his testimony last 
month, and the first one is probably most important, which you 
just alluded to now, Mr. Chairman, and that is the incredible 
cooperation that we are getting from all of our Federal 
partners, the other agencies. I want to take just a moment away 
from my prepared text and say just a short comment about the 
extraordinary cooperation that I think we are getting from the 
members of the legislative branch also.
    I have met with Senator Clinton and the New York 
delegation, and I would like to extend that invitation that we 
ought to do that more often I think, Senator. It helps us 
figure out what the problems are that maybe are not getting 
addressed and gives us time to go back and figure out ways to 
get those addressed. So, to the extent that we can continue to 
do that, I think we ought to do that.
    Senator Corzine, I would add that I have had conversations 
just today with Governor Ridge about some issues that have 
arisen in New Jersey. Again, I think it would be helpful if we 
just got together and talked sometime about some of those 
issues and how we might address those. I think they are really 
issues that maybe we can resolve just by getting together and 
talking face to face and saying what are you hearing out there 
that maybe we are not hearing in terms of the disaster field 
office. If we can do that, I think we can resolve a lot of 
problems.
    The second point I want to make, just to return to my 
prepared remarks, is that I think oftentimes we take for 
granted one main point, and that is the Stafford Act actually 
does work. The legislative framework that this committee has 
provided to us really provides us the necessary tools to carry 
out both the response and the recovery mission of the agency, 
and particularly in response to the attacks of September 11.
    Just briefly, some of those authorities give us support 
from the Urban Search and Rescue Task Forces, which I think we 
all agree have done an incredible response in New York and at 
the Pentagon. It allows us to mission assign other departments 
and agencies to take care of activities that need to be taken 
care of that perhaps other departments and agencies are not 
entirely focused on and allows us to coordinate those quickly 
and efficiently. It allows us to provide temporary housing 
assistance and rebuild the public infrastructure. It allows us 
something that we often take for granted, we do not think about 
it often enough, and that is, it allows us to provide crisis 
counseling for those who have suffered and it allows us to 
assist those State and local governments who have given 
everything they can and yet are losing so much.
    Those particular authorities I think absolutely empower 
FEMA to do the job that it needs to do in responding to all 
types of disasters, whether or not they are man-made or natural 
disasters.
    If we look at particular changes, I want to thank Senator 
Smith, who has now left but I will pass it on to the staff for 
all of their effort, for helping us with the Office of National 
Preparedness and actually taking some of those authorities and 
putting them into law. We appreciate both the intent and the 
spirit of that legislation, and we thank the ranking member for 
his help in that regard and look forward to working with him in 
the future on that.
    FEMA is uniquely suited to work closely with State, local, 
and tribal governments to ensure their consequence management 
planning, their training, and equipment needs are met. FEMA and 
its Office of National Preparedness will continue to support 
the Office of Homeland Security and Governor Ridge in those 
efforts.
    I want to call the committee's attention to the technical 
amendments we transmitted to the committee on September 21. We 
believe those are modest changes that will improve our ability 
to carry out our job in responding to all types of attacks.
    Over the past several days we have looked, very quickly I 
might add, very quickly, at a lot of legislative ideas that 
have been drafted. We do understand and we appreciate both the 
good will and the sound purpose of the authors of those 
amendments and the intent of those amendments. To the extent 
that we can, we should use current Federal authorities and 
programs before creating new or duplicative efforts. I do not 
want any of my comments though to be taken in the wrong 
context. I think we all agree we are here for really three 
purposes--How can we help? How can we do more? What can we do 
better? To that extent, we want to work as closely as we can 
with you in resolving any problems that are outstanding.
    One bill would require FEMA, in coordination with the FCC 
and the Department of Defense, to conduct a study to determine 
the resources that are needed to develop an effective 
communications system for the use of emergency response 
personnel during disasters. Clearly, we have no objection to 
this concept. Director Allbaugh has testified and we have 
spoken to many members of the Senate about the need to get a 
coordinated response system that allows us to communicate 
across all types of systems. The only thing I would ask the 
committee is to consider the timeframe in which we do that 
study and, of course, the resources needed to conduct that type 
of study.
    Another bill under consideration would establish within 
FEMA an Office of World Trade Center Attack Claims to reimburse 
individuals and businesses that were injured by the Trade 
Center attack on September 11. The draft legislation would 
establish the office and would require the Director or an 
independent claims manager appointed by the Director to 
reimburse claimants for losses suffered as a result of the 
World Trade Center attack. We believe the Stafford Act already 
contains a broad range of authorities that were triggered by 
President Bush's declaration of a major emergency. 
Nevertheless, it is clear that the draft legislation would 
cover a substantially broader range of injuries and losses than 
FEMA is currently authorized to address under the Stafford Act.
    As you are aware, Congress recently enacted the Air 
Transportation Safety and System Stabilization Act. Title IV of 
that particular Act authorizes the Justice Department to 
provide compensation to any person, or relatives of a deceased 
person, who was either injured or killed during the September 
11 attacks. Although the draft legislation creates a claims 
office within FEMA to provide assistance to a broader range of 
claimants than is currently provided by the Air Transportation 
Safety and System Stabilization Act, we are concerned about 
creating a separate claims office within FEMA. We might 
recommend that before this legislation proceeds further, we 
consider the idea of placing some of that claims processing 
within the Justice Department rather than FEMA because of some 
of the programs they are currently administering.
    In addition to our concern about potentially duplicative 
claims processing authorities, we believe it may be preferable 
to consider legislation in this situation to authorize 
additional flexibility within the Stafford Act as opposed to a 
different claims office. Again, we agree. We ought to make 
certain we are taking care of all of those victims. Let us just 
figure out the best track to do that.
    Another of the bills I would like to address would amend 
the Stafford Act to authorize the President to appoint 
Children's Coordinating Officers whenever an emergency or major 
disaster has caused children to lose one or more custodial 
parents. In every disaster, FEMA is concerned about the effects 
that these events have on children. FEMA is already authorized 
to provide crisis counseling assistance to disaster victims. We 
administer this authority by funding the State's costs of 
administering counseling services.
    New York's application addresses the need to provide 
counseling services to children who have been affected by the 
attack. According to the New York Office of Mental Health, 
these activities are being provided through outreach programs, 
education, and other existing children's services to those 
children who have suffered tragically by this attack. In 
addition, and a point I do not want to gloss over too quickly, 
FEMA's Disaster Legal Services Program can provide direct 
assistance to children who have lost parents in a disaster. I 
just met with that group during the ADA convention in Chicago a 
few months ago, and I am pleased to say that I think they are 
an incredible group of young people from the Young Lawyers 
Division who are concerned about providing guardianship advice, 
providing any sorts of advice that these children may need in 
terms of providing legal services that they might need to get 
the services provided by other agencies or departments.
    The proposed amendment to section 410 of the Stafford Act 
would extend the availability of Disaster Unemployment 
Assistance an addition 26 weeks, up to a full year, for 
individuals who are already eligible for such assistance. FEMA 
routinely tasks the Labor Department to administer this 
authority on our behalf in Labor. It does so in conjunction 
with its administration of its generic unemployment assistance 
authority. Most individuals who become unemployed as a result 
of a Presidentially declared disaster qualify for unemployment 
assistance that the Labor Department administers under its own 
authorities.
    The unemployment claims that have been filed in the 
aftermath of the attack are being paid by the Labor Department 
under their general unemployment assistance authorities and 
under the Disaster Unemployment Assistance provision of the 
Stafford Act. Because of the uniqueness of this situation, the 
Administration does support a 13-week extension of the 
availability of unemployment assistance benefits for qualified 
individuals as a result of the attack both under the Labor 
authority and under the DUA provision of the Stafford Act 
itself.
    The final draft bill I would ask to address in this hearing 
would amend the Stafford Act to authorize the President to 
implement a program to protect the health and safety of 
emergency response personnel in the aftermath of disasters 
which cause harmful substances to be released. FEMA routinely 
calls on the Environmental Protection Agency and the Department 
of Health and Human Services for expertise in assessing these 
types of concerns in the aftermath of disasters. This system 
has worked efficiently, and we therefore are not aware of any 
need to amend the Stafford Act to address this issue. But to 
the extent there are issues on the ground at Ground Zero that 
need to be addressed. We want to address those promptly and 
efficiently.
    Finally, the committee letter mentioned a need to amend the 
Stafford Act's temporary housing authority to increase the 
amount of funding that may be provided to repair ownership-
occupied housing that is damaged by a major disaster. There is 
a new provision in the Stafford Act that will take effect in 
May 2002 that would impose a $5,000 cap on this form of 
temporary housing assistance. In previous correspondence, we 
have asked the committee to amend this provision because of the 
unintended severe hardship on disaster victims with the lowest 
incomes and the most significant disaster impacts. While the 
cap does not affect the response in New York, we continue to 
urge the committee to make this technical amendment before the 
cap takes effect in May.
    In closing, I just want to add that despite any differences 
that might exist about technical amendments, that might exist 
about some of the legislation that is now before this 
committee, FEMA is absolutely committed to sitting down with 
each and every one of you to find out where those needs are not 
being addressed and how can we address those under the existing 
authorities. If we cannot, then let us work on some new 
legislation. But to that extent, I will be happy to answer any 
questions that the committee may have down the road. Thank you, 
Mr. Chairman.
    Senator Jeffords. Thank you very much.
    Mr. Moravec, I enjoyed meeting with you last week. We had 
an interesting discussion and I am sure you are going to cover 
some of those issues in your statement today. So, please 
proceed.

    STATEMENT OF JOE MORAVEC, COMMISSIONER, PUBLIC BUILDING 
            SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Moravec. Good afternoon, Mr. Chairman, and members of 
the committee. I am Joe Moravec, Commissioner of the Public 
Buildings Service. Thank you for the opportunity to discuss 
improving security in GSA-owned and leased facilities.
    We have had an ongoing effort to improve our security 
measures. In addition to our own initiatives, H.R. 307 was 
introduced in January of this year to provide for the reform of 
the Federal Protective Service, and to enhance the safety of 
Federal employees, the public, and children enrolled in 
childcare facilities located in facilities under GSA's control.
    A significant proposal in H.R. 307, the establishment of 
the Federal Protective Service as a separate service from PBS, 
did not have support from GSA nor the Senate. The principal 
reason we oppose making the Federal Protective Service a 
separate service within our agency is that it would divorce 
security from other Federal facility functions when the 
opposite needs to be done.
    Security needs to be tightly integrated into decisions 
about the location, design, and operation of Federal 
facilities. Divorcing FPS would create an organizational 
barrier between protection experts and the Public Buildings 
Service asset managers, planners, project managers, and 
facility managers who oversee the daily operations in our 
facilities. A separate GSA security service would lead to 
confusion about who was responsible for what in GSA's security 
efforts. It is also contrary to agency efforts to present our 
customers with a seamless GSA, capable of offering more 
integrated workplace solutions.
    Last year the Senate Transportation and Infrastructure 
Subcommittee recommended the establishment of direct line 
authority within PBS. The Administrator subsequently 
reorganized the Federal Protective Service and reassigned the 
reporting authority to the Federal Protective Service Assistant 
Commissioner in the central office.
    Under direct line authority, PBS has made substantial 
strides in fulfilling our mission to reduce the threat to 
Federal facilities under GSA control nationwide. The Federal 
Protective Service budget, personnel actions, and operational 
focus have been centralized to yield results better than that 
which could be obtained by establishing a separate competing 
service.
    Leading the Federal Protective Service is Acting Assistant 
Commissioner Richard Yamamoto, who is here with me today. Mr. 
Yamamoto is a graduate of the FBI National Academy with over 20 
years of law enforcement experience in the U.S. Army. He also 
spent 7 years coordinating joint Federal, State, and local law 
enforcement activities through the High Intensity Drug 
Trafficking Areas Program at the Office of National Drug 
Control Policy. Not only does Mr. Yamamoto possess extensive 
law enforcement and security skills, he also has been 
designated as a certified protection professional, which is one 
of the premier accomplishments in the field of security.
    Within Federal Protective Service, we are developing and 
requiring both law enforcement and security core competencies 
for all of our operational managers. While most of our current 
managers have Federal, military, or local police training and 
experience, those who do not have law enforcement training will 
be sent to the Leadership Academy Law Enforcement Course at the 
Federal Law Enforcement Training Center in Glynco, GA, to 
attain these necessary skills.
    Specifically addressing the proposal in H.R. 307 that there 
should be at least 730 full-time equivalent FPS police 
officers, we believe that FTE levels should not be based on an 
arbitrary number set forth in legislation, but rather on the 
threat that may vary from time to time. FPS regularly conducts 
individual facility security surveys and regional threat 
assessments to determine the threat to Federal facilities. FTE 
requirements are based upon these threat assessments. 
Specifically, we are increasing the number of our criminal 
investigators and uniformed law enforcement security officers 
who have both law enforcement and security competencies.
    That concludes my prepared testimony. I am of course 
available to answer whatever questions you may have.
    Senator Jeffords. Thank you very much.
    Dr. Sampson, please proceed.

 STATEMENT OF DAVID SAMPSON, ASSISTANT SECRETARY FOR ECONOMIC 
    DEVELOPMENT, ECONOMIC DEVELOPMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Sampson. Chairman Jeffords, members of the committee, 
it is a pleasure to be with you today. The Administration, the 
Department of Commerce, and the Economic Development 
Administration are committed to the economic revitalization of 
the New York economy.
    As you are aware, the Administration is providing 
considerable funding for efforts that are underway to promote 
the city's recovery and economic revitalization. In this 
context, this means that we are developing a multi-pronged 
approach at getting people back to work and businesses, both 
large and small, back on their feet as quickly as possible.
    The Economic Development Administration has contributed to 
previous disaster response efforts and has the statutory 
authority to assist communities in long-term economic recovery 
efforts. We have participated in those recovery efforts dating 
back to 1969 and Hurricane Camille. We play a supplemental role 
to the lead role played by FEMA, SBA, and other agencies, 
including the Department of Transportation and the Department 
of Housing and Urban Development.
    Let me speak just a little bit about the redevelopment 
strategy as I see it. While it is important that the Federal, 
State, and city governments move as quickly as possible to 
address the economic impacts in New York City, it is also 
critically important that economic revitalization efforts be 
based on a sound understanding of the New York City economic 
landscape both prior to September 11 and post-September 11 to 
ensure that Federal efforts are truly market-based and phased 
appropriately in light of the projected timeline for clearing 
the World Trade Center site.
    The Administration is committed to taking a thorough, 
comprehensive, and coordinated market-based approach in 
addressing New York's immediate and long-term economic recovery 
efforts. To this end, we believe it is vitally important to 
work not only with State and city officials, but also with New 
York's business leaders.
    With that in mind, last week several senior administration 
officials met with New York City business leaders and the New 
York City Partnership, the leadership of which includes CEOs of 
some of the global businesses headquartered in New York. The 
New York City Partnership has commissioned seven of the world's 
leading consulting firms, including A.T. Kearney, Booz-Allen, 
Bain, Boston Consulting Group, KPMG, McKinsey, and Pricewater-
houseCoopers, to assess the economic impact of the World Trade 
Center attack on New York City and identify investment 
priorities for renewal.
    Based on our conversations with New York City business 
leaders, my sense is that the most urgent need is to focus on 
recovery of businesses in the collateral damaged area because 
Ground Zero cleanup is probably a year away. The best 
information I have seems to indicate that there are 
approximately 5,000 businesses directly affected in New York 
City at Ground Zero as well as the cordoned off areas that 
Senator Clinton mentioned earlier. Approximately 4,000 of those 
are small businesses that previously employed about 77,000 
people. These are the most vulnerable businesses.
    Because of the indeterminate extent of the New York City 
recovery plan and timeline, it is evident that loans will not 
be the most appropriate vehicle in support of these businesses 
and they can only be retained by some sort of grant program. To 
that end, the Director of the Office of Management and Budget, 
Mitch Daniels, earlier today announced the release of 
additional funds from the Emergency Supplemental Appropriation 
that New York can use for such grants to businesses.
    The Administration is currently providing significant 
funding to New York through a variety of agencies, many of whom 
are at this table today, and is looking at a range of existing 
Government programs for a comprehensive solution. The 
Administration is focused on ensuring that economic recovery 
funding is effective and truly focused on rebuilding New York 
City's economic infrastructure in order to get people back to 
work and businesses up and running again as soon as possible.
    I believe that working together in this fashion, with the 
private sector certainly as a very important part of that, we 
will not disappoint those who need the assistance of an 
effective, coordinated Federal, State, and local response to 
rebuilding the economic infrastructure.
    I would of course be pleased to answer any questions that 
the committee may have.
    Senator Jeffords. Thank you very much. Very helpful.
    Mr. Meserve, a pleasure to be with you again. Please 
proceed.

  STATEMENT OF RICHARD MESERVE, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Meserve. Thank you, Mr. Chairman, and members of the 
committee. I am pleased to have been invited to appear before 
you on behalf of the U.S. Nuclear Regulatory Commission. I will 
discuss programs related to safeguards and security for NRC-
licensed commercial nuclear facilities, as well as actions NRC 
and its licensees have taken in response to the terrorist acts 
that occurred on September 11. I have submitted a longer 
statement for the record. Allow me to provide just a brief 
summary.
    The NRC response began immediately after the September 11 
attacks. Within 30 minutes of the plane strikes, we activated 
and staffed the NRC operations center at NRC headquarters and 
the incident response centers at NRC regional offices and we 
began close coordination with the FBI and other intelligence 
and law enforcement agencies, our licensees, and various 
military, State, and local authorities. Shortly after the 
attacks, we advised all our major licensees to go to the 
highest level of physical security, which they promptly did. We 
have provided continuing oversight and advice to our licensees 
since September 11.
    As of today, the NRC and our licensees are still in a 
heightened state of security readiness. Our headquarters 
operational center and regional response centers are full 
staffed, 24 hours per day, 7 days per week. We are prepared to 
make adjustments to security measures as circumstances warrant.
    NRC activities related to domestic safeguards and security 
and emergency response can be grouped into four categories.
    First, developing and implementing requirements for 
safeguarding nuclear facilities and materials and inspecting 
for compliance with those requirements; assessing the threat 
environment, including the international environment insofar as 
it has implications for domestic threats; maintaining and 
coordinating emergency response capabilities; and finally, 
providing physical security for NRC employees and offices.
    Beginning in the late 1970's the NRC established 
requirements to safeguard civilian nuclear power plants and 
fuel facilities. The result is that nuclear power plants are 
among the most hardened civilian facilities in this country. 
The NRC inspects these facilities to verify compliance with NRC 
requirements, to assess licensee safety performance, and to 
enforce our regulations.
    In the aftermath of the terrorist attacks of September 11, 
and the continuing uncertainty about future terrorist 
intentions, the NRC is undertaking a comprehensive review of 
its safeguards and physical security program. We currently are 
interacting with the FBI, other Federal law enforcement and 
intelligence organizations, the military, and the newly 
establish Office of Homeland Security so that necessary changes 
to our programs consider pertinent information from all 
relevant Federal agencies. We also are reevaluating the 
agency's ability to communicate with the press, the public, and 
interested parties regarding information relevant to security 
and physical protection of our licensees.
    As the Commission conducts its comprehensive reassessment 
of plant safeguards and security, we recognize that specific 
legislative needs may become apparent. In the interim, the 
Commission on June 22 submitted legislative proposals to your 
committee that we believe we need now. Specifically, we are 
seeking legislation that would amend the Atomic Energy Act to 
enhance the protection provided by guards at designated NRC-
licensed nuclear facilities, to criminalize sabotage of nuclear 
facilities during their construction, and to make clear that 
the unauthorized introduction of weapons or explosives into 
nuclear facilities will be subject to significant Federal 
criminal penalties for the individuals involved. I might add 
that we submitted that legislative proposal well before 
September 11.
    We have also recently developed a fourth proposed statutory 
change. We seek to confer upon guards at NRC-designated 
facilities the authority to possess or use weapons that are 
comparable to the Department of Energy guard forces or other 
Federal protective forces.
    In closing, I would like to reiterate that the NRC had a 
strong security and physical protection in place prior to 
September 11, and we are building on that strong foundation. We 
look forward to working with the Congress to address our mutual 
concerns and determine where the assets of our Nation are best 
deployed to fight the terrorist threat.
    I appreciate your invitation to appear here today to 
discuss the NRC's programs, and of course I am prepared to 
respond to your questions.
    Senator Jeffords. Thank you. We will have questions I 
assure you and look forward to working with you.
    Mr. Mitchell, you have had a tough time I know. This is not 
something that you experience very often, obviously, to be 
facetious. I appreciate all the work you have done. Please 
proceed.

  STATEMENT OF HERBERT MITCHELL, ASSOCIATE ADMINISTRATOR FOR 
       DISASTER ASSISTANCE, SMALL BUSINESS ADMINISTRATION

    Mr. Mitchell. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, my name is Herb Mitchell. I am the 
Associate Administrator for Disaster Assistance and I am 
appearing on behalf of the agency in the absence of 
Administrator Barreto. We thank the committee today for 
allowing us to come and just share with you what SBA's role has 
been not only in all disasters, but particularly in New York 
City.
    SBA continues to play an immediate and major role in 
providing disaster assistance loans not only for businesses but 
for homeowners and renters as well. While certainly the 
disaster in New York is different in scope, it does provide us 
with the same opportunity to assist in the immediate recovery 
of New York City, the region, and the Nation as a whole.
    In this disaster and all disasters, we have experienced a 
great deal of cooperation within the Federal family, with FEMA. 
In the past, we have worked with EDA and HUD in terms of 
economic recovery in disasters all around the country. FEMA 
certainly serves as the coordinator and the one-shop stop to 
ensure that those who are in need of disaster assistance have 
one place to come, and at that point all businesses are 
referred to SBA for assistance.
    Since the afternoon of September 11, SBA has been in lower 
Manhattan, working with FEMA and the State agencies to 
coordinate our response to the recovery effort. SBA has since 
deployed 94 people to the New York City area to complement our 
staff in Niagara Falls where the actual processing has taken 
place with about 200 employees there as well. We have employees 
around the country who are available to us in the need to 
supplement that staff in Niagara Falls.
    SBA's disaster program is the primary Federal program for 
funding recovery for private sector disaster victims. The 
program provides low interest loans, not to exceed 4 percent, 
to applicants without credit available elsewhere, and a higher 
rate not to exceed 8 percent for those who do have credit 
available elsewhere. We offer loans to repair real and personal 
property for homeowners, business loans to repair the property 
that is lost by the businesses there in New York. Economic 
injury loans are available to provide working capital to 
sustain those businesses until they are able to return to 
normal operations. A recent addition has been the Military 
Reservist loan program, where small businesses around the 
country that are impacted economically as a result of a key 
employee being called to active duty, those businesses that are 
impacted economically are also eligible to apply for working 
capital assistance.
    To complement the programs that SBA has available, we have 
been working with the New York Empire State Development Agency 
and several financial institutions in New York, the city of New 
York and the State, along with these financial institutions, to 
set up ``bridge loan'' and ``gap loan'' programs. The ``bridge 
loan'' program is intended to provide those businesses with 
immediate assistance until the SBA application process is 
completed and then at that point we are able to pay off those 
loans to the bank. The ``gap'' financing is intended to address 
those needs that the SBA loans are unable to address either 
because of size limitations or because they may not fall within 
the eligibility criteria. The ``gap'' financing that the 
lenders are providing will certainly try to address those 
needs. As of October 31, the SBA has made almost 1,000 loans 
for $82 million.
    Historically, under the disaster program, our assistance 
has been limited to the declared disaster area, in this case, 
it would be New York City and the immediate area and the State 
of Virginia as well. But because of the unprecedented nature of 
this attack and the widespread economic impact that it has 
caused around the country, SBA, working with the 
Administration, has expanded the Economic Injury Disaster 
Program around the country to allow those small businesses that 
have been impacted by the terrorist attack or subsequent 
Federal action, most of which have consisted of closure of 
airports and security measures along the border, for those 
small businesses that have been economically impacted as well, 
regardless of where they are located, to apply for economic 
disaster loans.
    Mindful of the nature of the businesses located in lower 
Manhattan, the Administration has also submitted legislation 
to, among other things, increase the size standards for 
businesses in New York City, to address the need where we find 
that there are a number of small- or medium-size businesses 
which, based on our current size standards, would not qualify 
for the working capital assistance. We have also proposed 
legislation that would allow financial service organizations 
and nonprofits to be eligible. Historically, these categories 
or industries have not been included in the assistance for 
working capital assistance.
    Also recognizing the tremendous need in New York, we are 
also proposing that we have the authority to raise the $1.5 
million loan cap that is currently in place, to increase that 
to $10 million.
    SBA's disaster loan program is also complemented by our 
regular loan programs and the technical assistance programs 
that we are able to provide through our resource partners, 
including the Small Business Development Centers, the Women's 
Business Centers, the Business Information Centers, and the 
Senior Corps Retired Executives, which have all been brought to 
bear in providing assistance businesses and the New York City 
community.
    We look forward to working with all of you to help the 
citizens of New York as well as those around the country that 
refuse to let terror destroy what we have collectively worked 
to build.
    In closing, I just simply want to share with you that while 
Administrator Barreto and I were in New York on our first 
visit, we met a business owner and I would just share with you 
what he told us at that time. He said, ``The terrorists tried 
to declare victory by destroying the World Trade Center 
buildings but,'' he insisted, ``they would not score a second 
victory by closing his business.'' This is the patriotism and 
this is the spirit that we have seen every time we visit New 
York. There are business owners there that want to get back in 
business, they want the customers to return so that they can 
get on with their lives.
    I would be pleased to answer any questions that you may 
have. Thank you.
    Senator Jeffords. Thank you, Mr. Mitchell.
    Ms. Horinko, please proceed.

  STATEMENT OF MARIANNE L. HORINKO, ASSISTANT ADMINISTRATOR, 
  OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Horinko. Mr. Chairman and members of the committee, 
thank you for the opportunity to discuss the Environmental 
Protection Agency's role in domestic terrorism preparedness 
and, more specifically, the agency's role in the protection of 
the Nation's water resources.
    The tragic events of September 11 have raised valid 
concerns over our Nation's vulnerability to terrorist attack. 
As a Nation, we are scrutinizing our efforts to prepare for and 
to prevent terrorist events. Realizing that we must always 
remain vigilant to new threats and must always be ready to 
respond, the agency welcomes the opportunity this hearing 
offers to examine these issues.
    My testimony today covers four major areas: EPA's role in 
counterterrorism preparedness and response before and after 
September 11; a specific discussion of drinking water 
protection related to the September 11 attack; EPA's overall 
protection of our Nation's drinking water; and the critical 
Federal coordination needed to meet the counterterrorism 
challenges that we face.
    The National Response Team consists of 16 Federal agencies 
with responsibilities, interests, and expertise in various 
aspects of emergency response to pollution incidents. The EPA 
serves as chair and the Coast Guard serves as vice chair of the 
NRT. This partnership includes such Federal agencies as the 
Agency for Toxic Substances and Disease Registry, Department of 
Defense, Department of Energy, Federal Bureau of Investigation, 
FEMA, and key nongovernmental organizations.
    Our Federal partnership sprung into action on September 11. 
Before the second plane had struck the World Trade Center in 
Manhattan, EPA headquarters had already begun coordination with 
our New York regional office to address the crash of the first 
plane. Ten minutes later, our EPA headquarters had linked all 
of our east coast regional offices to begin coordination in 
support of the New York response effort. EPA's Emergency 
Response Program was present onsite in New York, Virginia, and 
Pennsylvania within hours of the four plane crashes.
    Throughout the response effort, EPA worked in coordination 
with our Federal partners to monitor and protect human health 
and the environment from potential hazards associated with the 
three crash sites. At both the World Trade Center and the 
Pentagon, EPA provided monitoring for various air contaminants. 
For example, EPA and other Federal, State, and city agencies 
have taken literally thousands of samples of dust, air, 
drinking water, stormwater runoff, and river sediments in and 
around the World Trade Center site. We have tested for the 
presence of pollutants such as asbestos, lead, volatile organic 
compounds, dioxin, benzine, metals, PCBs, and other chemicals 
and substances that could pose a threat to the public and 
workers at the site.
    Fortunately, EPA, OSHA, and others have found no evidence 
of any significant public health hazard to residents, visitors, 
or workers beyond the immediate World Trade Center area. 
Despite recent press accounts which suggest otherwise, these 
findings have not changed.
    In addition to our monitoring activities, EPA assisted in 
removal and cleanup of dust and debris from the streets using 
vacuum trucks. EPA has also provided rescue workers and others 
onsite with protective gear and health and safety 
recommendations for the difficult conditions onsite.
    Regarding water concerns associated with Manhattan, EPA 
collected and tested drinking water at several distribution 
points. Following several days of heavy rain immediately after 
the incident, we collected water samples from storm sewers and 
surface runoff to determine if potential contamination from the 
site was entering the Hudson or East rivers. All samples of 
water, which were tested for a wide range of contaminants, had 
levels below the Federal standards.
    Recognizing the need to ensure appropriate coordination of 
water security activities, EPA has established a Water 
Protection Task Force that will guide efforts on long term 
drinking water infrastructure protection and wastewater 
treatment infrastructure protection.
    The Administration has requested $34.5 million as part of 
the terrorism supplemental appropriations for support of 
vulnerability assessments for drinking water systems and $5 
million for State grants for drinking water counterterrorism 
coordinators to work with EPA and the drinking water systems.
    With EPA support, the Sandia National Laboratory of the 
Department of Energy, in partnership with the American Water 
Works Association Research Foundations, is developing a ``tool 
kit'' to assist drinking water systems in conducting 
vulnerability assessments and identifying remedial action. We 
expect training on this resource to be available later this 
month. As an interim measure, EPA has disseminated a fact sheet 
that outlines measures utilities can take immediately to 
protect their drinking water supplies. Issued through the State 
drinking water program managers, this document should now be in 
the hands of every public water system.
    As this tool kit is being developed, the American Water 
Works Association Research Foundation is drafting additional, 
more detailed training materials that will provide step-by-step 
guidance to drinking water utilities on conducting 
vulnerability assessments, identifying remedial actions, and 
strengthening their emergency operation plant. Formal training 
sessions that will take utility security officials through the 
first steps of their vulnerability assessments will begin in 
December.
    As EPA continues to strengthen its counterterrorism program 
by building on the existing National Response System, the 
agency is involved in a variety of other activities with 
Federal, State, and local officials. EPA is requesting $5.5 
million in the terrorism supplemental appropriations to 
establish and equip a West Coast environmental response team, 
similar to the East Coast team that exists in Edison, NJ, and 
has been so instrumental in assisting at the World Trade 
Center.
    In the 10 EPA regions, the agency's first responders are 
the on-scene coordinators. The OSCs have been actively involved 
with local, State, and Federal authorities in preparing for and 
responding to threats of terrorism. EPA's OSCs, located 
throughout the United States, have broad response authority and 
a proven record of success in responding rapidly to emergency 
situations.
    We are expanding work with the State Emergency Response 
Commissions and the Local Emergency Planning Committees to help 
them incorporate terrorism response issues into their existing 
emergency plans. We are working closely with the Office of 
Homeland Security to develop long-term agency response plans 
for terrorist attacks.
    Finally, Mr. Chairman, I would like to say a word about the 
anthrax situation that we face here in the District of 
Columbia, in Florida, and in New York. The agency is receiving 
an increasing number of requests to provide assessment, 
sampling, and cleanup assistance at anthrax-contaminated 
buildings across the country, many very close to home here in 
this hearing room. The dilemma we face is that the Superfund 
statutory language that allows us to respond to these 
biological releases also limits our ability to recovery our 
response costs. To the extent these activities will continue, 
they will have an impact on our Superfund cleanup activities 
later in the year in many parts of the country.
    Finally, Mr. Chairman, I would like to emphasize that the 
Administrator, Governor Whitman, has made very clear to the 
entire agency that there is no higher priority than ensuring 
that EPA's mission to protect the environment and public health 
is a broad umbrella that encompasses homeland security. The 
expertise and experience the agency has developed over 30 years 
is poised to assist and support the hard work Governor Ridge 
and this Congress will be doing.
    Clearly, the Administrator is adamant that EPA's efforts to 
help secure the safety and integrity of America's water supply 
and infrastructure must be undertaken with great speed, energy, 
and attention. Deadlines that were established before September 
11 are no longer appropriate. We have no time to waste in 
completing this work and we intend to devote the resources 
necessary to make certain that it is done quickly and properly.
    Governor Whitman, myself, and our professionals throughout 
EPA welcome the opportunity to work with you, your colleagues 
in Congress, your professional staff, and with Governor Ridge 
and the Office of Homeland Security to protect and preserve the 
health and well being of every American citizen. Thank you.
    Senator Jeffords. Thank you. Thank you all for your very 
interesting statements. I deeply appreciate all the effort that 
has gone into your testimony for today.
    I am going to change the ordinary procedure in view of the 
fact that we have two Senators here from the area and allow 
them to ask questions first before I do.
    Senator Clinton. Thank you very much, Mr. Chairman. Let me 
thank all of the witnesses for your testimony and your 
extraordinary response to our needs.
    Mr. Meserve, I look forward to seeing you next week, so I 
will hold my questions about nuclear security. I have got some 
that I will submit to you in preparation for our meeting, and I 
thank you very much for your testimony today.
    Mr. Mitchell, I understood you to say you were submitting 
legislation with respect to the size requirements and to raise 
the loan caps. Does that request go to the Small Business 
Committee?
    Mr. Mitchell. My understanding is it has gone up as part of 
the Administration's request for the additional supplemental. I 
am not sure what particular appropriation it actually will be 
attached to. But we have submitted that.
    Senator Clinton. That is very good news, and I thank you 
for that. Perhaps we could check into that, Mr. Chairman, and 
find out if it is not part of the SBA responsibilities under 
the Stafford Act, that wherever that authority resides we could 
perhaps help to expedite that so that more companies will be 
able to take advantage. I greatly appreciate your sensitivity 
to the difference in size issues in New York.
    I also want to thank both Mr. Brown and Dr. Sampson for 
your understanding of the particular issue that we are 
confronting, which is trying to allow direct payments to 
private businesses so that, as Dr. Sampson reported from his 
meetings with a lot of our business leaders, they can get back 
on their feet more quickly. I was with Director Daniels earlier 
and appreciate his announcement of what the Administration is 
trying to do through CDBG. I hope though that we will continue 
to work together to try to figure out how to get this done 
right in the next several weeks.
    There are some real problems with moving through CDBG. We 
have tried CDBG in the past with direct payments in other 
disasters like Oklahoma City. It is my understanding that there 
was a lot of bureaucracy, it took a year, the agency that 
administers it, HUD, is not used to this kind of expeditious 
necessity that grows out of a disaster. I think that we could 
perhaps slightly structure it differently or look for ways of 
getting the money out more quickly. I know that both Senator 
Schumer and Congressman Walsh, because of their committees of 
jurisdiction, will be working with the Administration to try to 
determine how best to do that.
    I think I would like to offer, we keep looking for the best 
way to achieve this, that finally, after looking through many 
different options, we concluded that the Cerro Grande model 
would be particularly helpful. I would appreciate both of you 
responding to that.
    Mr. Brown. Well, the Cerro Grande model has, as you know, 
been an incredibly good model. It has been proven to work. We 
got the money on the ground very quickly, very efficiently. I 
hope GAO agrees with us in the future that we did it 
appropriately, but I think we did it efficiently and quickly.
    There are some differences, though. I do not want this to 
sound crass or inappropriate, but in Cerro Grande it was a 
federally-caused disaster and here we have a terrorist caused 
disaster. While that should not impact our decision to try to 
get money on the ground in New York as quickly as possible, the 
basis for the models is different in the sense that Cerro 
Grande was in response to a federally-caused disaster. That is 
just a difference I think we ought to be aware of.
    I think there are ways to take the Cerro Grande model and 
what we are doing now in Santa Fe and apply that to the 
Stafford Act now through maybe some regulatory changes that 
would accomplish the same thing without actually creating the 
office. In all honesty, Senator, it has come on us so quickly 
that we have not really set down and analyzed that. I would 
just lay that on the table, that that is something I would like 
to do is go back and say to the Director and to our staff is 
there some way regulatorily that we can accomplish the same 
thing without creating the separate office.
    Senator Clinton. I really appreciate that offer, Mr. Brown. 
I think we are all trying to get to the same solution.
    Mr. Brown. Exactly.
    Senator Clinton. We are concerned that the CDBG model has 
some built-in problems. One of my Republican colleagues in the 
House came up to me after Director Daniels' announcement and 
said how are we going to make sure that they do not just run it 
through the same old political system that they have had before 
where we will never see that money, or at least not in any 
expeditious way. So that is our goal, to try to figure out how 
to streamline this and maximize the return. One of the 
executives who was with us today was representing a city group 
and he told us that they are processing about $800 million 
worth of private insurance for about 16,000 businesses. He says 
the vast majority of those businesses, even with their 
insurance proceeds, are not going to keep their doors open. 
They just cannot figure out how to make it an economic go under 
the circumstances.
    If they could get some bridge help through grants like 
this, and if we get through with the crime scene problems which 
are such an impediment--and I keep mentioning that because I 
have been to lots of disasters, Senator Lott was with us and he 
said that he and I having had experience in tornado alley were 
well aware of disasters, but this is a massive disaster with 
the lay over of the crime scene and businesses cannot get 
customers. So we are just struggling for creative answers.
    I appreciate greatly the distinction that others have drawn 
between the Cerro Grande model. Saying that the Federal 
Government had caused that fire, I mentioned that to some of my 
businesses executives. I said, you know, the difference is that 
the Federal Government caused the fires, and this gentleman 
said, ``Well, does that mean if Mohammed Atta had been a 
Federal employee we would get the claims office?'' It is a very 
chilling kind of question.
    We need the money now however we can get it out. One of our 
problems is the timing. Congress is moving toward adjournment. 
If we do not get the authorizing legislation or the regulatory 
changes, then the appropriated dollars that will come from the 
promised money that the President has stood behind and Director 
Daniels again reiterated today, the $20 billion will not be 
able to be allocated. So that is the urgency that we face.
    So I would like to work with Dr. Sampson and Mr. Brown, 
particularly, to see if we cannot come up with a model, through 
regulatory or statutory changes, through this committee or 
others, that we can push through.
    I also wanted to ask, Mr. Brown, when you said that you 
have agreed to the 13 additional weeks on unemployment 
insurance, is that in addition to the 13 weeks that have 
already been declared, so that we would have a total of a 26 
week extension now?
    Mr. Brown. That was my understanding that it is now a full 
26 week extension.
    Senator Clinton. Would this only apply when your other 
criterion is met, a 30 percent increase in the unemployment 
rate since September 11?
    Mr. Brown. I am not aware of that. Let me ask some of the 
experts if we know that answer. We are not familiar with that. 
We will find out, Senator, and let you know.
    Senator Clinton. Because we know that we have already gone 
up from 5 percent to 6.3 percent. I think the 13 weeks is great 
and welcome news. We are still of the opinion that we need an 
additional 26 weeks on top of that. But we are going to work 
with you on that, and I am very grateful for your support.
    I also appreciate your reviewing of the health tracking 
legislation because I am very concerned about our World Trade 
Center cough. We are worried that the men on the pile are 
injuring their health while they try to continue to do the work 
we are requiring to be done. So we need to work that out as 
well.
    But I appreciate greatly the extraordinary cooperation. If 
we can have a sense of urgency to try to figure out what 
regulatory and statutory changes we need, we then can get into 
this process the sort of authority that is required.
    Dr. Sampson, did you want to add to that?
    Mr. Sampson. Yes, Senator. I concur and am very sensitive 
to your concern about delivering funds through the same 
mechanisms that may delay. I think there are some very 
intriguing models that we became aware of in visiting in New 
York with New York's business leaders. I think one of the 
opportunities through the CDBG program is perhaps creatively to 
channel some of those funds through pre-existing business-based 
organizations that have a protocol in place to assist these 
businesses, that have a very extensive volunteer network based 
on a workforce that is being provided by all the banks in the 
area to assist these small businesses. So I think there are 
some creative ways to be able to get that money delivered much 
more quickly than perhaps traditionally is done.
    Senator Clinton. That would be great, because the Downtown 
Business Association, which I think was represented at your 
meeting, is a very competent organization.
    Mr. Sampson. Yes, ma'am.
    Senator Clinton. If we could by-pass the usual bureaucracy, 
which, frankly, has a different set of criteria--they usually 
work with low- and medium-income people, predominantly low-
income people in different settings than what we are facing 
now--if we can get that money out and get it to some of our 
voluntary associations who know how to run lean and effective 
programs, that would be a big help.
    Mr. Sampson. I think that is very promising. We would be 
happy to work with you to explore that.
    Senator Jeffords. Thank you.
    Senator Corzine.
    Senator Corzine. Thank you. Let me once again compliment 
all of your agencies for I think outstanding work in a time of 
crisis for our country. So if the questions do not match those 
words, I think that is the primary message that I want to get 
across.
    [Laughter.]
    Senator Corzine. There are occasionally things that I think 
we can learn from some of the issues. Let me start with Mr. 
Brown. The New Jersey senatorial delegation has a call in to 
the Director to try to set up just the meeting that you are 
talking about. It is not because there has not been 
cooperation, it is just that enough time has gone by that we 
know the things that we need to work on.
    Mr. Brown. Senator, let me just say that the Director is 
going to be out of pocket for probably another 5 to 7 days for 
a personal health matter. So I would just suggest that perhaps 
your staff get hold of the Director's office again and let us 
get that set up immediately. Let us not waste any more time.
    Senator Corzine. Most of the issues that evolve from New 
Jersey are right from the centerpiece of major disaster 
declaration versus emergency declaration. I think there is an 
important issue here that goes to the heart of the Stafford 
Act. It may be hard to actually designate New Jersey, even 
though it has enormous loss of life and real impact, within the 
context because it does not meet some detailed definition or 
standards. By any normal human standards, the kind of loss of 
life you would think would lead to reactions that are similar 
to any other area and it just happens to be that we have a 
river running between the two States. We call them the New York 
Giants but they play in the Meadowlands. That is really 
symbolic of what the nature of the neighborhood is.
    I think that there are a number of things within the 
Stafford Act, starting with how you deal with the declarations, 
that end up dictating terms. This is certainly one that I want 
to talk about specifically as it relates to a number of issues 
that flow specifically from that. I will not tie up the 
committee with respect to those, but they are really quite 
serious in application.
    I would mention one which I think also relates to New York, 
and that is the issue of straight time versus overtime 
repayment. A number of the emergency personnel and police 
forces, it is how resources are allocated that sometimes is the 
issue, not whether there is overtime payment actually going on 
with respect to law enforcement and other facilities. I 
forewarn you that it will be at the second or third point of a 
meeting. But I think it is equally true for New York City and 
New York State, New Jersey, and a number of people that are 
involved in anthrax situations and others with regard to needs 
that I think need to be addressed within the context of FEMA 
reimbursements. I think it is actually quite a significant 
issue.
    I listened to the conversation. I think it was you, Dr. 
Sampson, who said there were 5,000 businesses south of Canal 
Street, 4,000 of them small businesses. I think it is 
remarkable, Mr. Mitchell, that we have 1,000 loans out and $82 
million. But there is a disconnect with 4,000 businesses and 
1,000 loans for small businesses when undoubtedly the need is 
really quite great. While I do not have as much information on 
this as I do on some of the hurricanes that have come along, 
this is a cumbersome process, not because anybody intends it to 
be but because it is.
    I think within the context of the FEMA response in disaster 
areas we need to expedite this process. While I like some of 
these models, I am of the ``keep it simple, stupid'' stage with 
regard to how we deal with getting money into pockets of people 
who do not have business interruption insurance, do not have 
the sophistication to deal with a lot of the applications or 
even interfacing with Citicorp to try to get some of these 
loans. I think that there is real need for examining the 
Stafford Act within these contexts. I wish I were smart enough 
to tell you all of the ways that should be done. I do not think 
it is ill will on anybody's part. I think it is just a very 
complicated process.
    I compliment EPA for the creativity of tapping the 
Superfund site to get money into certain pockets that would not 
naturally tie. I certainly would encourage that with regard to 
Small Business in lower Manhattan. I would like you to think 
about the west side of the river as well. But these are 
desperate times for those companies and time is their enemy as 
much as the issue with respect to access to loans. I think 
actually grants are more appropriate since it is a national 
disaster and not something that anyone could have legitimately 
planned for.
    I would say also, Mr. Chairman, if we took a tour of EPA's 
testing facility in Edison, we would find that it is in a 1942 
barracks refitted for laboratories. There are more trailers 
than there are buildings. If we expect our people to do timely 
and adequate work, I think we have a real obligation to 
understand what it is we are investing in the facilities to be 
able to generate the kind of response that I think we need. I 
would encourage, whether it is formal or informal, a review of 
how this is all put together. People have done an outstanding 
job at EPA to do what they have done.
    I think I am going to stop there. There is so much to learn 
and so much that I think we need to do, but time really is an 
enemy of recovery because a lot of people will lose their 
ability if not their will to survive in these times. I look 
forward to working with the chairman on a number of these 
issues and making sure that we replenish the Superfund since 
New Jersey has 115 Superfund sites.
    [Laughter.]
    Ms. Horinko. We are more than pleased, Senator Corzine, Mr. 
Chairman and Senator Carper, to come up and brief you on what 
we are doing and some of the challenges that we face.
    Senator Jeffords. We appreciate that.
    I waited for my questions till last because I had a rather 
long list and I let the Senators from the area go first. But if 
you want to have a comment now, Senator Carper, I would be 
happy to accommodate you.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you very much, Mr. Chairman. I will 
not be long. I do not watch much TV but every now and then I 
catch a commercial that I especially enjoy. I had the news on 
this morning and there was a commercial that had a band that 
sort of looked like the rock group KISS in concert. After the 
show, they were backstage and this guy walks in and says ``I 
smell world tour. I'm going to take you guys and make a fortune 
going around the world.'' Then they start taking off their 
costumes and they are not KISS at all, they are some other 
group. The guy says, ``Who are you guys?'' and one of the 
fellows says, ``I am nobody special but I did stay in a Holiday 
Inn last night.''
    [Laughter.]
    Senator Carper. It reminded me of another similar 
commercial for the same company. The situation was a nuclear 
power plant and the place was just about to have meltdown and 
the alarms were going off. This one guy just kind of takes 
charge right in the middle of everybody. He is sitting there 
eating a jelly donut and telling everybody what to do, what to 
shut down and so on. After he gets everything under control, 
everybody turns around and says ``Who are you?'' He says, 
``Well I am nobody special but I did stay at a Holiday Inn last 
night.''
    So this is a question involving nuclear power, not jelly 
donuts, not KISS, but nuclear power. What if the terrorists 
strike one of our nuclear power plants and the guy that was in 
that commercial is not around or nobody there stayed at the 
Holiday Inn last night? How do we react and how do we make sure 
that the terrorist attack does not somehow spill over and cause 
the kind of calamity that we all know that it could? Just put 
us at ease, Mr. Meserve, if you will, and tell us how we are 
preparing for that eventuality.
    Mr. Meserve. Let me say that I think it is very easy for 
people to have a lot of dramatization about nuclear power 
plants. Fortunately, the reality is quite different. Before 
September 11, we had in place a very serious capability at 
nuclear power plants to provide security. That includes 
basically a perimeter defense system, detection systems for 
intruders, heavily-armed response forces that are also well 
trained, defensive positions that are within the facility that 
are armored in order to be able to respond to various kinds of 
attacks, and, of course, a whole defensive strategy. We inspect 
the facilities to verify that the facilities have the capacity 
to be able to defend themselves against what we call the design 
basis threat, which is the regulatory obligation that every 
power plant have a capacity and demonstrate the capacity to 
defend against certain kinds of attacks.
    Since September 11, we have required that all of our power 
plants go onto a heightened security status, the details of 
what that has meant you will appreciate are ones that we are 
not advertising and do not advertise publicly. It is classified 
information.
    Senator Carper. We do not want to know.
    Mr. Meserve. That basically involves an enhancement of the 
kinds of things that I have described as part of the 
capability--increased number of guards, increased weapons, 
increased patrols and control posts.
    I have also communicated after September 11 with the 
Governors of 40 States to make sure that those States were 
aware of the nature of the defenses at the facilities and aware 
of the limitations of those defenses in the event some 
extraordinary attack were marshalled, that there would be State 
assets that could be provided. As a result of that, at most of 
the sites today there is assistance being provided, at the 
perimeter of the facilities typically, by local law 
enforcement, by State police, and by National Guard.
    We have also had extensive interaction with other agencies 
of the Government, including the military, to ensure that there 
is an awareness of the limitations of the defenses at the 
facilities and the need perhaps under some circumstances for 
Federal assets to be provided. So there is an awareness 
throughout the Government of these plants and what they can and 
cannot do.
    I think we have taken every reasonable and prudent action 
to assure that the nuclear power plants are capable of 
defending themselves against the circumstances in which we now 
find ourselves.
    Senator Carper. Good. One follow up on that, Mr. Chairman, 
if you do not mind. The law which deals with the insurance, 
Price Anderson, which I believe is up for reauthorization this 
year----
    Mr. Meserve. That is correct.
    Senator Carper. How is the need for reauthorization of 
Price Anderson affected, if at all, by the kind of threat that 
our nuclear power plants might be under?
    Mr. Meserve. Well, the Price Anderson Act covers a large 
number of different kinds of facilities including Department of 
Energy facilities. With regard to the existing nuclear power 
plants, the Price Anderson protections will continue on even if 
the Price Anderson Act itself terminates. So with regard to 
existing power plants, there is no effect on the liability and 
protection scheme that is established by that statute. If there 
were to be new construction, the failure to have a Price 
Anderson Act would mean that the new plants would not have the 
benefit of that statutory system. So if it were nuclear power 
plants, there would be a need for reauthorization. There is 
also a need for reauthorization in light of the Department of 
Energy facilities. But the demand is not there because of a 
pressing need for existing power plants.
    Senator Carper. Are there some proposals that have come to 
your attention to build some new nuclear power plants in the 
next couple of years, or at least to start that process?
    Mr. Meserve. There is serious evaluation that is underway 
by the generating companies about the prospect of new 
construction. No one has come to us and said that they 
assuredly will file an application. But this is an area in 
which there is interest. The reason is really I think quite 
simple to see, is that the existing nuclear power plants have 
established really quite an extraordinary record of both 
economic performance and safety performance over the last 
couple of decades, steadily improving performance. One of the 
consequences of that is that the production costs for nuclear 
power plants are such that they are now the cheapest form of 
electricity on average that is on the grid today. So that has 
meant that if you are a generating company you are interested 
in those types of assets.
    Senator Carper. OK. Thanks very much. Mr. Chairman, thanks 
for letting me go ahead of you.
    Senator Jeffords. Thank you.
    Senator Carper. Hopefully inject a little humor into this 
serious deliberation.
    Senator Jeffords. Thank you. It is always a pleasure to 
have you with us.
    Ms. Horinko, have there been any studies pertaining to the 
health effects of human exposure to chlorine dioxide gas? I 
have staffers who are pregnant and staffers who suffer from 
asthma who work in the Dirksen Building which joins Hart. Can 
you assure me that their health will not be compromised by 
these remediation activities?
    Ms. Horinko. Mr. Chairman, that is a common question that 
we are hearing from folks on the Hill whom we are briefing on 
our proposed remediation plan for the Hart Building. A couple 
things I would like to say to put their minds at rest about our 
plan.
    Senator Jeffords. That is why I am asking it.
    Ms. Horinko. Absolutely. Very valid concerns. First of all, 
the actual chlorine dioxide gas itself will only be present in 
the building during very limited times during which we have the 
building sealed off and access to the Dirksen Building sealed 
off. The Dirksen Building itself will be empty during that 
period. So there will be no human exposure to the chlorine 
dioxide gas during the period in which we propose to remediate 
the building. The gas itself decomposes relatively quickly. In 
fact, it will be a challenge to us to make sure that we keep it 
active long enough at levels that are appropriate to remediate 
the anthrax spores. Then we will scrub the building and make 
sure that it is completely safe, both from the standpoint of no 
gas being present and also no spores being present, before 
anyone is allowed back in the building.
    The gas itself decomposes to relatively harmless salts. In 
fact, it is commonly used today in a number of commercial 
settings such as sanitizing bakeries or dairies or other 
places, used on computer equipment, on many household products 
and food products. In fact, we are exposed to this pretty 
ubiquitously in the environment because it is used so commonly 
today.
    My staff is telling me that in fact, by virtue of having 
run this gas through the HVAC system in the Hart Building, 
whatever spores or mold or bacteria was in the HVAC system will 
actually be remediated, so anyone who has asthma will probably 
be in better health as a result of our fumigating the building 
than they would be if we had not.
    So we will work to get our scientific data up to you all so 
that you can see that this is a very safe and effective product 
and that they will not suffer any ill effects as a result of 
the residual impacts of this technology.
    Senator Jeffords. Thank you for that answer. I have never 
been through an experience like this, I do not think any of us 
have, where we are in the midst of the exposed areas. There is 
a great deal of anxiety created in our staffs in particular. So 
that is very helpful.
    Back to the power plants. It is good to see you again.
    Mr. Meserve. Nice to see you, Mr. Chairman.
    Senator Jeffords. I understand that the FAA has established 
a no-fly zone of sorts around a nuclear power plant. This no-
fly zone applies only to noncommercial aviation and expires 
November 7. Additionally, there seems to be a question of how 
this no-fly zone can be enforced. This is a concern to my State 
where reports of an unidentified plane flying close to the 
Vermont Yankee plant on September 13 have never been fully 
explained and obviously caused some anxiety. In your opinion, 
what is the advisability of providing greater protection for 
air space around nuclear plants? Do you have any suggestions on 
ways that this might be accomplished, and is there anything we 
need to do to help you?
    Mr. Meserve. This is a difficult issue. Immediately in the 
aftermath of the September 11 event, we started our discussions 
with the FAA and with the military about the possibility of 
another aircraft attack. There has been for some time something 
that is called a notice to airmen that is issued by the Federal 
Aviation Administration that requests pilots not to fly over or 
in the vicinity of nuclear power plants and other similar 
facilities, not just nuclear power plants but other 
infrastructure of a similar kind, chemical plants and the like. 
We did see a reduction in the number of fly overs as a result 
of that notice but they were not eliminated.
    We established a protocol with the FAA so that if there 
were a fly over our licensees were to do their best as they 
could to observe the tail number on the aircraft, communicate 
that to the FAA, to us, and to the military in order that there 
could be a follow up activity to pursue the reason for that fly 
over and to discourage any further fly overs. We were not 
always successful of course in identifying the aircraft, nor 
when there were police or military efforts to intervene did 
they always find the aircraft that had exited the region by the 
time they got there.
    As a result of the intelligence that led to the 
announcement by Attorney General Ashcroft the other day, there 
was a decision to establish no-fly zones for general aviation 
aircraft over 70 sites licensed by the NRC and 16 or 17 sites 
that are under the control of the Department of Energy. That 
was as a result of a discussion that not only involved the NRC 
but the Office of Homeland Security, the military, FAA, and 
other agencies with interest in the matter. It is a balance 
between the disruption of civilian usage of the airspace and 
the need to provide protection. This is a limitation that is 
going to expire in a week or so as this current threat is 
understood to diminish.
    It is my view that this is an issue that you have 
commercial issues that have to be evaluated in terms of the 
impact on the usage of airspace by general aviation aircraft, 
some of which are of course commercial, not for flying 
passengers but business travel and for freight and the like. 
There is a question of the military response in that there is 
little point to establish a no-fly zone if there is not some 
way to enforce it. So you have an issue about the deployment of 
your defensive assets that have to be resolved. So I think this 
is a complicated issue that involves interests that go well 
beyond just the NRC's. It involves the interests of a variety 
of other agencies.
    Senator Jeffords. It obviously does. So I do not know 
whether any legislation is needed or whatever, but I am sure 
you will let me know. This committee has a responsibility over 
the plants in the sense of security, so we want to work with 
you and make sure that you have whatever authority you feel is 
appropriate.
    Mr. Meserve. Thank you very much, Senator.
    Senator Jeffords. Mr. Moravec, last week I met with you and 
GSA and Administrator Steven Perry. In that meeting we 
discussed the Federal buildings security and you told me that 
one of the biggest obstacles facing your agency is the 
retention of security personnel. Because of the differences in 
pay grades between GSA and other Federal law enforcement 
agencies, you told me that your agency experiences a tremendous 
amount of turnover with your Federal security personnel. Can 
you discuss what needs to be done to help your service attract 
and retain trained law enforcement personnel and what kind of 
legislation, if any, you need to help you?
    Mr. Moravec. Thank you, Senator. This is a point of 
vulnerability for the Federal Protective Service. Particularly 
lately, with the high state of alert that we have been forced 
to maintain at all Federal facilities, it has thrown into high 
relief the pressure our manpower is under. We have determined 
that we need not only to keep the manpower that we have, the 
Federal law enforcement and security officers that we have, but 
probably to increase that force. We are being forced to run 12-
hour shifts and that is putting a lot of pressure on them. 
Frankly, we are stretched pretty thin.
    The Federal Protective Service uniformed personnel are at a 
disadvantage relative to other Federal police forces in terms 
of the pay scale that they are entitled to and also in terms of 
the benefits package which they are entitled to upon 
retirement. That has proven to be a challenge for us in terms 
of retaining people. We are also, of course, subject to people 
being called up by the National Guard which is putting pressure 
on it. There is really not very much we can do about that. The 
principal concern is losing our people to other Federal 
services. For example, the air marshals right now are offering 
a $25,000 signing bonuses for qualified law enforcement and 
security personnel and that is awfully tempting for some of our 
people.
    Senator Jeffords. Have you seen a number looking into that, 
is that what you are telling me?
    Mr. Moravec. Have we seen----
    Senator Jeffords. A number of your employees looking to go?
    Mr. Moravec. Yes. In fact, just last week we lost two of 
our most highly qualified people in the national capital 
region, people that we could ill afford to lose. We are 
concerned that that could be a continuing challenge for us.
    Senator Jeffords. How do you go about approaching a 
solution? Do you have to come to us?
    Mr. Moravec. Well, a certain amount of relief I think can 
be orchestrated through work with the Office of Personnel 
Management. But it is my understanding that legislative relief 
would be required to change particularly the benefits package 
which we are able to offer these people.
    Senator Jeffords. Well I feel for you. So if we can be of 
help, let us know.
    Mr. Moravec. Thank you very much, Senator.
    Senator Jeffords. Mr. Brown, on October 16 this committee 
held a hearing to discuss FEMA's response to the events of 
September 11. During a discussion with the emergency response 
personnel at that hearing the emergency responders suggested 
the need for a dedicated national communications system for 
emergency responders to better coordinate and respond to 
disasters. Listening to that, I could easily understand. We 
have a hodgepodge of communications systems and trying to 
connect them up in a disaster is not an easy thing. Crews from 
Maryland and Virginia responding to the Pentagon disaster were 
at times unable to communicate with each other because they 
were using different radio frequencies, etc. What is the 
solution?
    Mr. Brown. The solution, Mr. Chairman, is to do the study, 
get some money, and fix it. It is very simple. The solution 
itself is not going to be simple, getting there is. We have to 
identify how we are going to use those different broadbands, 
get those dedicated to us, get the money, and have a national 
system.
    Senator Jeffords. OK. What about the digital spectrum, do 
you need access to that?
    Mr. Brown. Yes, we will.
    Senator Jeffords. So, again, you need----
    Mr. Brown. Although I have heard, and I will have to get 
back to you on this, I have heard that actually we have more 
problems utilizing the digital spectrum than we would an analog 
and that actually analog in terms of disasters may be more 
beneficial to us.
    Senator Jeffords. OK. Please keep me advised.
    Mr. Brown. We will do that.
    Senator Jeffords. If you need any help----
    Mr. Brown. We need your help in that area.
    Senator Jeffords. All right. We are here to help.
    Mr. Brown. Good.
    Senator Jeffords. Dr. Sampson, since 1992 the EDA has 
received over $600 million in supplementary appropriations to 
deal with the aftermath of major disasters. Can you explain the 
disaster grant process and the role EDA plays in post-grant 
oversight, and how can the agency put this experience to use to 
aid the people of New York?
    Mr. Sampson. The EDA has primarily three sets of tools to 
use in disaster response grants. First, our technical 
assistance and planning grants; second, capitalization of 
revolving loan funds that can be used where appropriate for 
financing that is not available on the market; and the third 
primary tool is through public works grants.
    As we discussed, the circumstances in New York and the 
needs of those businesses are somewhat unique to many of the 
other disasters that we have been involved in. I think the 
major lessons that we have learned from working with those 
disasters over the past really many number of years is that the 
fundamentals of economic recovery do not change after the 
disaster. Economic development stays basically operating 
through several principles. Before businesses will reinvest, 
there has to be a likely outcome that they are going to get a 
return on that investment, and I think Senator Corzine referred 
to that basic principle.
    Second, the effort needs to be thorough, comprehensive, and 
coordinated. I think we have learned that we need to carefully 
scope the problem and then apply the right resources. That is 
the approach the Administration is trying to take right now by 
identifying the appropriate Federal resources to bring to bear. 
One of the major lessons is there is a need for streamline 
delivery of those services. I think Senator Clinton already 
identified the importance of that.
    The role that EDA has consistently played is as a partner 
to those lead agencies that are here at this table--FEMA, SBA, 
Department of Transportation, HUD. We are happy to bring those 
lessons to bear and assist our partner agencies in dealing with 
this disaster as well.
    Senator Jeffords. Thank you.
    Mr. Meserve, I understand that the NRC has been in close 
contact with the Governors and the Federal intelligence and 
enforcement agencies as well as the military. Have these 
discussions dealt with evacuation plans should an emergency 
occur? Do all nuclear power plants have in place clear 
procedures for notifying and coordinating with local and 
Federal disaster response personnel? Would local police, 
firefighters, and government officials know what to do, how to 
coordinate, and what roads should be opened and closed, etc.? 
People like reassurance on this, as you understand.
    Mr. Meserve. I appreciate the question. In the post-
September 11 environment, our discussions have principally 
focused on whether a threat exists and assuring that there is 
appropriate defensive capability to be able to respond to any 
threat.
    We do have as part of our normal regulatory process a 
requirement that every nuclear power plant have an emergency 
plan and that would cover events of all types. The NRC's focus 
is on the onsite portion of it and we work with our colleagues 
at FEMA and with the State emergency response agencies with 
regard to the offsite portions of it. Those plans are required 
to be updated whenever there is a significant change. Like a 
road were to close or what have you, then the plan would have 
to be adapted. We require in any event that those plans be 
reevaluated every 2 years. At every site we have every 2 years 
a full exercise--that means not only the NRC portion, the 
onsite portion of the plan, but also involving the FEMA assets 
and the State and local assets--in order to attest the capacity 
of the plans to be able to respond to events. So this is 
something that is part of our normal emergency planning at the 
nuclear power plants and is subject to continuing review to 
assure that the emergency plans are adequate.
    Ms. Horinko. Mr. Chairman, if I might add, our----
    Senator Jeffords. I was going to ask you a question, too, 
so go right ahead.
    Ms. Horinko. I was going to say that in addition to our lab 
at Edison, New Jersey, that Senator Corzine mentioned he 
believes is sadly in need of upgrading, we have a fine team of 
radiological emergency responders who are specialized and can 
assist our on-scene coordinators, our network of EPA teams that 
respond to chemical and oil spills and also are responding to 
the anthrax. So our folks are also trained to respond to 
nuclear incidents and can help out in these situations.
    Senator Jeffords. Thank you both. I will follow up with my 
question to you, Ms. Horinko. In your testimony, you state that 
the anthrax remediation and World Trade Center cleanup efforts 
may be depleting the Superfund trust fund. I am very concerned 
about depleting the Superfund, but we obviously need to provide 
for anthrax cleanup as well. Are you certain that if there is 
another terrorist event the EPA will have money readily 
available to respond? In light of this, are you certain that 
you have adequate resources to continue your current pace of 
cleanup at the Superfund sites?
    Ms. Horinko. Mr. Chairman, that is a very important 
question and, frankly, we are at a point now where we are going 
to be taking a very hard look at our portfolio of sites. Thus 
far, we have been able to respond using our existing emergency 
funding authority under the Superfund law and deploy our 
resources. But it looks like we are in this for the long haul. 
I will be meeting with my regional Superfund division directors 
next week and we are going to take a very careful look at the 
portfolio of sites that we must address this year and figure 
out what we can and cannot do. I will be pleased to follow up 
with you and your staff after that meeting and figure out what 
we need to do the job properly.
    Senator Jeffords. I appreciate that. We did not think about 
these kind of things when we were creating the Superfund, and 
yet it certainly fits in that kind of a situation.
    Ms. Horinko. I will say that our existing system is 
responding very well and I am proud of the work that our folks 
are doing in the field.
    Senator Jeffords. Mr. Mitchell, thank you for your help. I 
do not have a question for you. Senator Clinton cleared up that 
area. So I just want to thank you for sharing with us your 
experiences.
    Thank you all. We also reserve the right to question any of 
you that we feel like by writing after you leave, so do not get 
too rested.
    [Laughter.]
    Senator Jeffords. Thank you all.
    [Whereupon, at 3:55 p.m., the committee was adjourned, to 
reconvene at the call of the chair.
    [Additional materials submitted for the record follow.]
    Statement of Michael D. Brown, Acting Deputy Director, Federal 
                      Emergency Management Agency
    Good afternoon, Chairman Jeffords and Committee members. I am 
Michael D. Brown, the General Counsel and Acting Deputy Director of the 
Federal Emergency Management Agency (FEMA), and I am pleased to testify 
today about several draft bills that are being considered in the 
aftermath of the World Trade Center attack.
    One bill would require the Director of FEMA, in coordination with 
the Federal Communications Commission and the Department of Defense, to 
conduct a study to determine the resources that are needed to develop 
an effective communications system for the use of emergency response 
personnel during disasters. We have no objection to the concept of 
performing such a study, but note that allocating resources to this 
effort would have an impact on our operating budget.
    Another bill under consideration would establish within FEMA an 
Office of World Trade Center Attack Claims to reimburse individuals and 
businesses that were injured by the World Trade Center attack on 
September 11.
    Several other bills under consideration would amend the Stafford 
Act to: (1) authorize the President to conduct studies relating to 
protection of the health and safety of emergency responders in the 
aftermath of disasters where harmful substances have been released into 
the disaster area; (2) direct the President to appoint Children's 
Coordinating Officers following disasters where children have lost one 
or more custodial parents; and (3) extend from 26 weeks to a year the 
availability of disaster unemployment assistance for individuals who 
are already eligible for this assistance under the Stafford Act. In 
addition, FEMA was asked informally to address whether there is a need 
for new legislation involving housing repairs relating to the September 
11 attack.
    The draft legislation to establish a World Trade Center claims 
office within FEMA would require the Director of FEMA or an independent 
claims manager who would be appointed by the Director to reimburse 
claimants, including individuals and businesses that live or maintain 
businesses in the area around the attack site, for losses suffered as a 
result of the World Trade Center attack. The bill indicates that 
claimants could file claims for a variety of different losses, 
including property losses, infrastructure damage, business interruption 
losses, wages for work not performed, insurance deductibles, temporary 
living or relocation expenses, and debris removal costs. The bill also 
requires FEMA to deduct from any claim payments the amounts that 
claimants received from insurance recoveries and disaster assistance 
payments provided by FEMA, other Federal agencies, State or local 
governments, charities, or non-profit organizations. Initially $2 
billion would be authorized to be appropriated to implement the 
legislation--$1,925,000,000 to pay claims, and $75,000,000 to cover the 
costs of administering the program.
    As you are aware, the Stafford Act already contains a broad range 
of authorities that were triggered by the President's major disaster 
declaration. We have provided temporary housing assistance to address 
the housing-related needs of victims of the attacks. FEMA is also 
providing funding to cover 100 percent of the costs of performing 
debris removal at the site of the attack. In addition, we are providing 
assistance to repair and replace all publicly owned and certain 
nonprofit facilities that were damaged or destroyed by the attack.
    Nevertheless, it is clear that the draft legislation would cover a 
substantially broader range of injuries and losses than FEMA is 
authorized to address under the Stafford Act. For example, the Stafford 
Act does not authorize FEMA to reimburse disaster victims for business 
interruption losses, wages for work not performed, and business 
relocation expenses. In addition, the Stafford Act only authorizes FEMA 
to provide assistance to eligible applicants, such as State and local 
governments and a limited number of nonprofit organizations. The draft 
legislation, on the other hand, would require FEMA to pay claims that 
might be submitted by virtually all individuals and businesses that 
were injured by the attack.
    As you know, Congress recently enacted the Air Transportation 
Safety and System Stabilization Act. Title IV of that Act authorizes 
the Justice Department to provide compensation to any person, or 
relatives of a deceased person, who was injured or killed in the 
September 11 airplane crashes. Although the draft legislation that 
would create a claims office within FEMA would provide assistance to a 
broader range of claimants than is covered by the Air Transportation 
Safety and System Stabilization Act, we question whether this is an 
appropriate role for FEMA.
    While Justice is still developing the regulations of this program, 
FEMA is already addressing a substantial percentage of the needs of 
individuals who were injured by the attack at the World Trade Center 
pursuant to the authorities of the Stafford Act. On the other hand, our 
preliminary review of the draft legislation suggests that most of the 
claims that would be paid pursuant to the bill would flow to businesses 
that were damaged by the attack and that agree to re-establish their 
business activities in the area affected by the attack.
    FEMA believes that there are already authorities administered by 
the Small Business Administration (SBA) that would cover many of the 
types of losses that the bill would require FEMA to address. While I 
recognize that there are caps on the disaster assistance loans that SBA 
is currently authorized to provide, and while I also recognize that 
affected businesses would prefer to have access to Federal grants, 
rather than loans, we believe it would be preferable to consider 
legislation in this situation that would authorize additional 
flexibility for existing Federal programs.
    Another one of the bills that I was asked to address would amend 
the Stafford Act to authorize the President to appoint Children's 
Coordinating Officers whenever an emergency or major disaster caused 
children to lose one or more custodial parents. The Coordinating 
Officers would be responsible for providing support and assistance to 
such children to ensure that they were provided with adequate temporary 
care services, mental health services, and counseling to address their 
long-term needs. As you know, FEMA is already authorized to provide 
crisis counseling assistance to disaster victims. We administer this 
authority by funding States' costs of administering counseling 
services. State applications for crisis counseling funds must address 
how services will be provided generally, and in particular to special 
populations, such as children.
    New York's application already addresses the need to provide 
counseling services to children who have been affected by the attack. 
According to the New York Office of Mental Health, these activities are 
being provided through outreach programs, education, and other existing 
services to children who lost a parent in the attack. We are not aware 
that this has become an issue which needs to be addressed by amending 
the Stafford Act, but we would welcome the opportunity to discuss this 
issue with Committee members, as well as representatives of the State, 
New York City, and counseling providers to ensure that appropriate 
counseling and long-term services are available to all needy children. 
Additional needs in this regard would probably best be addressed by 
agencies with a traditional role in the provision of such services.
    I was also asked to address a draft bill that would amend section 
410 of the Stafford Act to extend the availability of Disaster 
Unemployment Assistance (DUA) an additional 26 weeks--to a full year--
for individuals who are already eligible for such assistance. As you 
may be aware, the DUA program is administered on our behalf by the 
Department of Labor, the Federal partner in the Federal-State 
unemployment compensation system. The Department of Labor enters into 
agreements with the States to administer the DUA program through the 
State unemployment compensation systems. Most workers who become 
unemployed as a result of Presidentially declared disasters qualify for 
unemployment compensation under the regular State programs. Those who 
do not may qualify for DUA.
    The unemployment claims that have been filed in the aftermath of 
the attack are, therefore, being paid under State unemployment 
compensation laws and under the DUA provision of the Stafford Act. The 
Administration has proposed, as part of the Back-to-Work Relief package 
which has been introduced in the Senate by Senator Allen as S. 1532, to 
extend unemployment compensation for an additional 13 weeks for 
individuals who became unemployed on or after September 11 in States 
where a major disaster or emergency was declared as a result of the 
attacks and in States where the unemployment rate increases by 30 
percent over the pre-September 11 rate. In addition, in light of the 
uniqueness of this situation, the Administration would support an 
additional 13 weeks of disaster unemployment assistance in those States 
where a major disaster was declared due to the September 11 events.
    The final draft bill that I was asked to address in this hearing 
would amend the Stafford Act to authorize the President to implement a 
program to protect the health and safety of emergency response 
personnel in the aftermath of disasters which cause harmful substances 
to be released. The program would authorize: (1) the provision to 
community members and emergency response personnel, including 
volunteers, of information about harmful substances; (2) monitoring of 
the long-term health impacts of harmful substances; and (3) training in 
the use of personal protective equipment for emergency response 
personnel. FEMA routinely calls on the Environmental Protection Agency 
and the Department of Health and Human Services for expertise in 
assessing these types of concerns in the aftermath of disasters. This 
system has worked efficiently, and we therefore are not aware of a need 
to amend the Stafford Act to address this issue. However, this is an 
important issue that may require more time for review within the 
Administration.
    Finally, the Committee letter mentions a need to amend the Stafford 
Act's temporary housing authority to increase the amount of funding 
that may be provided to repair owner-occupied housing that is damaged 
by major disasters. There is a new provision of the Stafford Act that 
will become effective next May that would impose a $5,000 cap on this 
form of temporary housing assistance. In previous correspondence we 
have asked the Committee to amend this provision, which, when it 
becomes effective in May of 2002, will work a severe hardship on 
disaster victims with the lowest incomes and the most significant 
disaster impacts. This cap was enacted within Public Law 106-390. While 
the cap does not affect the response in New York, we continue to urge 
the Committee to make this technical amendment before the cap takes 
effect next May.
    Thank you for this opportunity to testify before you today. I would 
be pleased to answer any questions you might have.
  Statement of Joseph Moravec, Commissioner, Public Buildings Service
    Good morning Mr. Chairman, and members of the Committee. I am 
Joseph Moravec, Commissioner of the Public Buildings Service. Thank you 
for the opportunity to discuss improving security in GSA-owned and 
leased facilities.
    In addition to our own initiatives, H.R. 307 was introduced January 
30, 2001, to provide for the reform of the Federal Protective Service, 
and to enhance the safety of Federal employees, the public and children 
enrolled in childcare facilities located in facilities under GSA 
control.
    Former PBS Commissioner Robert Peck addressed H.R. 809, the 
predecessor to H.R. 307, on September 28, 2000 during a hearing in the 
House Subcommittee on Economic Development, Public Buildings and 
Emergency Management. A significant proposal in H.R. 809, the 
establishment of the FPS as a separate service from the PBS, did not 
have support from GSA nor the Senate. The principal reason we at GSA 
continue to oppose H.R. 307's proposal to make FPS a separate service 
within our Agency is that it would divorce security from other Federal 
facility functions when the opposite needs to be done. Security needs 
to be tightly integrated into decisions about the location, design and 
operation of Federal facilities. Divorcing FPS would create an 
organizational barrier between protection experts and the PBS asset 
managers, planners, project managers and facility managers who set PBS 
budgets and policies for our inventory as a whole and who oversee the 
daily operations in our facilities.
    The security we provide is financed out of rent revenues collected 
by PBS from our tenants who look directly to PBS for responses to their 
security needs. A separate GSA security service would lead to confusion 
about who is responsible for what in GSA's security efforts. It is also 
contrary to agency efforts to present our customers with a seamless 
GSA, capable of offering more integrated workplace solutions.
    Following the September 2000 testimony by Commissioner Peck, the 
Senate Transportation and Infrastructure Subcommittee recommended the 
establishment of direct line authority within PBS. The Administrator 
subsequently approved and issued GSA Orders ADM 5440.548 and ADM 
5450.137, effective November 17, 2000, that reorganized the FPS and 
reassigned the reporting authority of FPS Regional Directors from the 
PBS Assistant Regional Administrators to the FPS Assistant Commissioner 
in the Central Office.
    Under direct line authority, PBS has made substantial strides in 
fulfilling our mission to reduce the threat to Federal facilities under 
GSA control nationwide. The FPS budget, personnel actions and 
operational focus have been centralized to yield results better than 
that which could be obtained by establishing a separate competing 
service. All FPS Regional Directors now report to the FPS Assistant 
Commissioner in the Central Office. The FPS Assistant Commissioner 
reports to the PBS Commissioner who reports to the Administrator.
    Leading the Federal Protective Service is Acting Assistant 
Commissioner Richard Yamamoto. Mr. Yamamoto is a graduate of the FBI 
National Academy with over 20 years law enforcement experience in the 
U.S. Army. He also spent 7 years coordinating joint Federal, State, and 
local law enforcement activities through the High Intensity Drug 
Trafficking Areas (HIDTA) Program at the Office of National Drug 
Control Policy.
    Mr. Yamamoto exemplifies the core competencies we desire of all our 
operational management personnel within FPS. Not only does Mr. Yamamoto 
possess extensive law enforcement and security skills, he also has been 
designated as a certified protection professional--one of the premier 
accomplishments in the field of security. Within FPS, we are developing 
and requiring both law enforcement and security core competencies for 
all of our operational managers. While many of our current managers 
have Federal, military or local police training and experience, those 
who do not have law enforcement training will be sent to the Leadership 
Academy Law Enforcement Course at the Federal Law Enforcement Training 
Center (FLETC) in Glynco, GA, to attain these necessary skills. This 
course provides the same essential core elements of the courses taught 
in the FPS Mixed Basic Police Training Program with identical 
examinations and standards including the full firearm qualification 
course and test.
    Specifically addressing the proposal in H.R. 307 that there be at 
least 730 full-time equivalent FPS Police Officers, we believe that FTE 
levels should be based not on an arbitrary number set forth in 
legislation, but rather on the threat that may vary from time to time. 
FPS regularly conducts individual facility security surveys and 
Regional Threat Assessments to determine the threat to Federal 
facilities. FTE requirements are based upon these threat assessments. 
Currently, our planning anticipates that current levels should be 
adjusted for Fiscal Year 2002 and Fiscal Year 2003 to enable FPS to 
achieve a more desirable mix of operational personnel. The Fiscal Year 
2003 FTE targets have been constructed to support an anticipated need 
for 408 Federal Protective Police Officers and 323 Law Enforcement and 
Security Officers, for a total of 731 uniformed positions. 
Specifically, we are increasing the number of our criminal 
investigators and uniformed Law Enforcement Security Officers (LESO) 
who have both law enforcement and security competencies.
    FPS has made great strides in reducing the threat to Federal 
facilities, tenants, visitors and their property. We are actively 
implementing many initiatives to identify and decrease threats through 
individual facility security assessments and the Regional Threat 
Assessment Program. Relying on this information, we have refined our 
requirements, coordinated more effectively with other law enforcement 
agencies, improved our training, and positioned ourselves to measure 
our expected outcome of reducing the threat.
    We at GSA have no more important responsibility than providing for 
the security of the tenants and visitors in our facilities and are 
continually striving to enhance our protection services. I thank the 
Committee for this opportunity to discuss our promising new security 
initiatives at GSA facilities. This concludes my prepared statement. I 
am pleased to answer any questions you should have.
                               __________
    Statement of David A. Sampson, Assistant Secretary of Economic 
                Development, U.S. Department of Commerce
    Chairman Jeffords, Senator Smith, Members of the Committee: Thank 
you for this opportunity to appear before the Environment and Public 
Works Committee regarding the Economic Development Administration's 
(EDA) role in the economic revitalization of New York City. I have a 
longer prepared statement; with your permission, I ask that it be 
inserted into the record.
    One week ago today Deputy Secretary of Commerce Samuel Bodman, 
Lloyd Blanchard (Office of Management and Budget Associate Director 
General Government Programs), Doug Holtz-Eakin (Chief Economist of the 
President's Council of Economic Advisors), and I toured the World Trade 
Center site and met with leading members of New York City's business 
community. As you know, Ground Zero is quite literally beyond 
comprehension or description. But equally moving was the sight of 
thousands of New Yorkers who were lined up outside Madison Square 
Garden to participate in a job fair for displaced workers.
    The Administration, the Department of Commerce, and the Economic 
Development Administration are committed to the economic revitalization 
of New York. As you are aware, the Administration is providing 
considerable funding for efforts that are underway to promote the 
City's recovery and economic revitalization. In this context this means 
we are developing a multi-prong approach at getting people back to work 
and businesses, both large and small, back on their feet.
               eda administration of disaster assistance
    The Economic Development Administration (EDA) has contributed to 
previous disaster response efforts and has the statutory authority to 
assist communities in long-term economic recovery efforts. EDA has 
participated in over 20 major disaster adjustment efforts since 
Hurricane Camille in 1969, and has received in excess of $600 million 
in supplemental appropriations to deal with disasters since 1992. 
Appendix A illustrates EDA's supplemental disaster appropriations. This 
funding has supplemented the lead roles assigned to the Federal 
Emergency Management Agency (FEMA), the Small Business Administration 
(SBA), and other agencies, including the Department of Transportation 
(DOT) and the Department of Housing and Urban Development (HUD). EDA 
has limited ability to respond without a supplemental appropriation.
    Under existing statutory authority, EDA administers disaster 
program funds through targeted grants to disaster-impacted communities 
designed to achieve long-term economic recovery.
    EDA disaster recovery efforts assist communities in shifting focus 
from short-term emergency response to long-term economic impacts of the 
disaster, and enabling the development of an economic recovery program 
that reflects local priorities.
    EDA's disaster response is organized into three phases: (1) 
monitoring, (2) mobilization, and (3) program delivery. Each phase has 
a triggering event with specific roles and responsibilities for EDA's 
divisions. The plan builds upon the basic organizational structure and 
is designed to enable EDA to reasonably adapt its resources to be 
responsive to the size and scope of the disaster.
    Reports of potential disaster situations, such as severe storm 
warnings and FEMA advisories, or the occurrence of a sudden 
catastrophic disaster such as an earthquake or tornado, trigger the 
initial monitoring phase. Activities include monitoring the events and 
gathering information critical to positioning EDA to move quickly into 
the mobilization phase, if warranted.
    A Presidential declaration of a major disaster triggers the 
intermediate mobilization phase. Other types of non-Presidential 
disaster declarations may also trigger portions of EDA recovery plan 
actions.
    EDA triggers the final program delivery phase by issuance of a 
Disaster Response Guidance Memorandum from EDA headquarters to 
appropriate EDA organizational units. Generally, proceeding with the 
program delivery phase also assumes that emergency supplemental 
appropriations or other funding resources have been identified and 
dedicated to EDA's disaster response, recovery, and mitigation 
activities.
    EDA's discretionary grant implementation for disasters is in 
accordance with the prevailing statutory requirements and regulations. 
Within the statutory and regulatory framework and subject to any 
disaster specific restrictions, EDA uses all available program tools to 
implement a timely and appropriate strategic disaster recovery response 
to the disaster, consistent with EDA's economic recovery role.
    When asked to assist with disaster recovery, EDA has a 
comprehensive and flexible set of program tools, including:
    <bullet> Targeted economic recovery planning and technical 
assistance grants;
    <bullet> Revolving loan fund grants to address unmet business 
financing needs where other financing is insufficient or not available; 
and
    <bullet> Infrastructure construction grants to rebuild an 
environment attractive to private investment for the re-creation of job 
opportunities.
    While our program tools are flexible, EDA has a clearly defined 
target group of those eligible to receive EDA investment dollars. Those 
eligible include State and local governments, public and private 
nonprofit organizations, and regional economic development districts. 
Businesses are not eligible for direct assistance under EDA's major 
programs.
    Additionally, FEMA may direct EDA to perform economic impact 
evaluations or carry out other specific tasks through special ``mission 
assignments.'' Recently, FEMA mission assignments have tasked EDA to 
perform economic impact assessments in North Carolina, Virginia and New 
Jersey resulting from Hurricane Floyd.
                          administrative costs
    The additional EDA staff and staff administrative costs would 
depend greatly on the amount of funds involved and the nature of the 
assistance. Since 1994, EDA has received additional funding for 
Salaries and Expenses (S&E) to administer emergency supplemental 
appropriations. The S&E rate averaged 5 percent of the funds 
appropriated, with the expectation that the funds would cover the costs 
associated with both grant award and post-approval monitoring for 3 to 
5 years.
    EDA currently oversees New York City development projects from our 
Philadelphia regional office, which is staffed with 35 employees. As 
this region consists of more than a dozen States, EDA at this time has 
relatively few staff devoted exclusively to New York City development 
projects. Were EDA to be assigned a responsibility for a portion of New 
York economic revitalization and recovery efforts, we would, as we have 
in past disasters, assemble a special disaster response team comprised 
of existing headquarters personnel as well as existing personnel from 
the six regional economic development offices around the country.
                         redevelopment strategy
    While it is important that the Federal, State, and city governments 
move as quickly as possible to address the economic impacts in New York 
City, it is also critically important that economic revitalization 
efforts be based on a sound understanding of the New York City economic 
landscape both pre-September 11 and post-September 11 to ensure that 
Federal efforts are truly market-based and phased appropriately in 
light of the projected timeline for clearing the World Trade Center 
site.
    The Administration is committed to taking a thorough, 
comprehensive, and coordinated market-based approach in addressing New 
York's immediate and long-term economic recovery needs. To this end, we 
believe it is vitally important to work not only with State and city 
officials, but also with New York's business leaders.
    With that in mind, last week we met with New York City business 
leaders and the New York City Partnership. This group's leadership 
includes CEO's of global businesses headquartered in New York. The New 
York City Partnership has commissioned seven of the world's leading 
consulting firms (A.T. Kearney, Booz-Allen, Bain, Boston Consulting 
Group, KPMG, McKinsey, and PricewaterhouseCoopers) to assess the 
economic impact of the World Trade Center attack on New York City and 
identify investment priorities for renewal. As I understand from my 
briefing, the overall project objectives will be to:
    <bullet> Adopt a base line of New York City economic forecasts 
prior to the World Trade Center tragedy;
    <bullet> Assess the economic impacts of the World Trade Center 
tragedy on all key industries and sectors of the City economy, both 
short-term and long-term;
    <bullet> Understand the economic and fiscal impact on lower 
Manhattan and New York City and fiscal impact on New York State; and
    <bullet> Identify priorities to accelerate recovery.
    Based on my conversations with New York City business leaders, my 
sense is that the most urgent need is to focus on recovery in the 
collateral damaged area because Ground Zero cleanup is probably a year 
away. The best information I have seen indicates that there are 
approximately 5,000 businesses directly affected in New York City at 
Ground Zero and the cordoned off areas. Approximately 4,000 of those 
are small businesses that employ approximately 77,000 employees. These 
are the most vulnerable businesses. Because of the indeterminate extent 
of the New York City recovery program, it is evident that loans will 
not be an appropriate vehicle in support of these businesses and they 
can only be retained by some sort of grant program. The Director of the 
Office of Management and Budget, Mitch Daniels, is announcing today the 
release of funds from the Emergency Supplemental Appropriation that New 
York can use for such grants to businesses.
    The Administration is currently providing significant funding to 
New York through a variety of agencies. The proposed authorization for 
a major grant to provide employment incentives needs more analysis to 
ensure the funding of recovery is effective and provides the 
infrastructure necessary to move the economic base of New York City 
forward. The Administration is looking at a range of existing 
government programs for a comprehensive solution. We believe this is a 
better systemic approach than locking into a $2 billion appropriation 
at EDA.
    The Administration is focused on ensuring that economic recovery 
funding is effective and truly focused on rebuilding New York City's 
economic infrastructure in order to get people back to work and 
businesses up and running again. As the Administration and Congress 
make these decisions, I respectfully suggest we do not limit ourselves 
to one narrow path of assistance, but use a wide range of existing 
Federal programs and delivery infrastructure to maximize every Federal 
dollar on rebuilding New York City. Working together with the private 
sector, we will not disappoint those who need the assistance of an 
effective, coordinated Federal, State and local response to rebuild the 
economic infrastructure and get people back to work.
    Thank you for allowing me to testify before you today. I would be 
happy to answer any questions you may have.

                               APPENDIX A
       EDA Supplemental Disaster Appropriations.--1992 to Present
------------------------------------------------------------------------
                                                  Program
         Fiscal Year               Disaster        Funds      S&E Funds
                                                 (Millions)   (Millions)
------------------------------------------------------------------------
92...........................  Hurricanes               $70           $5
                                Andrew, Iniki
                                and Typhoon
                                Omar.
                               EDA awarded 63
                                grants in
                                Florida,
                                Hawaii,
                                Louisiana, and
                                Guam.
93/94........................  Midwest Floods.          200
                               EDA awarded 297
                                grants in
                                North Dakota,
                                South Dakota,
                                Iowa,
                                Missouri,
                                Kansas,
                                Wisconsin,
                                Minnesota, and
                                Illinois.
94...........................  Southern                  91
                                California
                                Earthquake
                                (Northridge).
                               EDA awarded 20
                                grants in
                                southern
                                California.
94...........................  NE Fishery                18
                                Disaster.
                               EDA awarded 21
                                grants in the
                                New England
                                States.
94...........................  Tropical Storm            50            5
                                Alberto.
                               EDA awarded 74
                                grants in
                                Georgia,
                                Alabama and
                                Florida.
96...........................  1996 Floods....        16.75         1.25
                               EDA awarded 41
                                grants in
                                Maryland, New
                                York,
                                Virginia,
                                Pennsylvania,
                                West Virginia,
                                Kentucky,
                                Idaho, Oregon,
                                Washington and
                                North Dakota.
97...........................  Hurricanes Fran           25
                                and Hortense.
                               EDA awarded 44
                                grants in
                                North
                                Carolina,
                                South
                                Carolina,
                                Virginia, West
                                Virginia, and
                                Puerto Rico.
97...........................  Upper Midwest           50.2            2
                                Floods of 1997.
                               EDA awarded 74
                                grants North
                                Dakota, South
                                Dakota,
                                Minnesota,
                                Kentucky, West
                                Virginia,
                                Ohio, Indiana,
                                Illinois,
                                Arkansas and
                                Tennessee.
99...........................  Alaska                  19.1           .9
                                Fisheries.
                               EDA has to-date
                                awarded 29
                                grants in
                                Alaska.
                                Implementation
                                is still
                                proceeding.
00...........................  Hurricane Floyd         55.8         1.9*
                               EDA awarded 51
                                grants
                                primarily in
                                New Jersey,
                                North Carolina
                                and Virginia.
01...........................  Alaska Norton             10  ...........
                                Sound
                                Fisheries.
                               EDA has to-date
                                awarded 10
                                grants in
                                Alaska.
                                Implementation
                                is still
                                proceeding.
                                               -------------------------
                               TOTAL..........      $605.85       $14.15
------------------------------------------------------------------------
*1.9 M for S&E for Hurricane Floyd and Norton Sound Fisheries provided
  through an fiscal year 2001 reprogramming.

                               __________
           Statement of Richard A. Meserve, Chairman, Nuclear
                         Regulatory Commission
    Mr. Chairman and members of the Committee, I am pleased to have 
been invited to appear before you, on behalf of the United States 
Nuclear Regulatory Commission (NRC), to discuss programs related to 
safeguards and security for NRC-licensed commercial nuclear facilities, 
and to discuss the actions that NRC and its licensees have taken in 
response to the terrorist acts that occurred on September 11.
    The NRC response began immediately after the September 11 
attacks.Within 30 minutes of the plane strikes, we activated and 
staffed the NRC Operations Center at NRC Headquarters and the incident 
response centers in the NRC Regional offices, and we began close 
coordination with the FBI and other intelligence and law enforcement 
agencies, our licensees, and various military, State and local 
authorities. Shortly after the attacks, we advised all nuclear power 
plants, non-power reactors, nuclear fuel facilities, gaseous diffusion 
plants, and decommissioning facilities to go to the highest level of 
physical security (Level 3), which they promptly did, discussed 
immediate actions and addressed specific questions. Increased security 
measures were also implemented at NRC offices.
    As of today, the NRC and our licensees are still in a heightened 
state of security readiness. We have enhanced NRC building security, 
and we continue to monitor the situation closely. Our Headquarters 
Operations Center and Regional Response Centers are fully staffed, 24 
hours per day, 7 days per week. We are prepared to make adjustments to 
security measures as circumstances warrant.
       security and safeguards for commercial nuclear facilities
    The NRC's primary focus and responsibility is to ensure adequate 
protection of public health and safety is maintained and promotion of 
the common defense and security in the peaceful use of Atomic Energy 
Act materials. We fulfill this responsibility by establishing and 
refining requirements and programs intended to protect NRC-licensed 
facilities and nuclear materials against both radiological sabotage and 
theft or diversion. The NRC has the statutory responsibility to 
maintain the protection of the public's health and safety by ensuring 
adequate physical security and safeguards.
    NRC activities related to domestic safeguards and security and 
emergency response can be grouped into four categories:
    <bullet> Developing and implementing requirements for safeguarding 
certain types of nuclear facilities and material and inspecting for 
compliance with those requirements;
    <bullet> Assessing the threat environment, including the 
international environment insofar as it has implications for domestic 
threats;
    <bullet> Maintaining and coordinating emergency response 
capabilities; and
    <bullet> Providing physical security for NRC employees and offices.
    Beginning in the late 1970's, the NRC established requirements to 
safeguard civilian nuclear power plants and fuel facilities that 
possess special nuclear material. The regulations apply a graded 
approach--that is, greater controls and protection are applied to 
nuclear materials and facilities that could pose higher risks to public 
health and safety. Accordingly, nuclear power plants must implement 
security programs that include site access controls, intruder detection 
systems, central alarm stations, physical barriers, armed guard forces, 
and detailed response strategies. The result is that nuclear power 
plants are among the most hardened facilities in this country. The NRC 
inspects these facilities to verify compliance with NRC requirements, 
to assess licensee safety performance, and to enforce our regulations 
in a manner that ensures adequate protection of the health and safety 
of the public.
    For example, one NRC requirement which reflects the graded approach 
to protection, is that commercial power reactors must have the 
capability to defend against certain defined security threats, referred 
to as a Design Basis Threat. The specifics of this Design Basis Threat 
are safeguards information. What I can say in public, is that the 
Design Basis Threat assumes that the adversaries will consist of a 
number of well-trained and dedicated individuals with knowledge of the 
facility, armed with weapons up to and including automatic weapons and 
specialized equipment, such as incapacitating agents and explosives. It 
also envisages use of land vehicles and a potential truck bomb. 
Licensees must establish and implement a security plan to respond to 
this assumed threat. NRC oversight of licensee efforts in this area 
includes routine and event-based onsite inspections, performance 
indicator reviews, and force-on-force exercises. Any deficiencies found 
in an exercise are promptly corrected and the corrections are verified 
by NRC inspectors. In addition to the capacity to defend against a 
Design Basis Threat, licensee security programs include provisions for 
requesting assistance from offsite authorities when appropriate.
    The requirements to protect against sabotage or theft or diversion 
of nuclear materials also apply to major NRC-regulated fuel cycle 
facilities, such as the gaseous diffusions plants and uranium 
hexafluoride conversion facilities. Aside from the nuclear materials 
aspects of these operations, these types of facilities present chemical 
hazards. The NRC coordinates with other Federal agencies, such as EPA 
and FEMA, to address these non-radiological hazards.
    The NRC continuously monitors and assesses--in coordination with 
Federal intelligence organizations--the overall threat environment in 
the United States and abroad in support of the domestic regulatory 
program. Insights from this threat assessment program are used to 
ensure the continued adequacy of the physical protection programs 
required by NRC regulations. We also maintain a more ``real-time'' 
assessment capability, again through ongoing liaison with the national 
intelligence and law enforcement communities, to evaluate threats to a 
licensee and to provide timely threat advisory and assessment 
information to our licensees. Further, all reported security-related 
events of more than minor significance are promptly analyzed by an 
internal team of subject matter experts to help guide immediate NRC 
followup actions.
    The NRC's emergency response program includes the capability to 
respond to a radiological sabotage incident. This would be accomplished 
within the U.S. Government interagency crisis and consequence 
management framework. Most of these activities are conducted under the 
Federal Radiological Emergency Response Plan, in coordination with the 
Federal Emergency Management Agency, Federal Bureau of Investigation, 
Department of Energy, and other Federal participants. As noted earlier, 
NRC has lead Federal Agency responsibilities for radiological 
emergencies. NRC's program is designed to assess licensee responses to 
plant-specific events and to support local, State, and Federal 
authorities in the case of an emergency declaration.
    I would also like to point out that all NRC licensees with 
significant radiological material have emergency response plans to 
mitigate the impacts of radiological events, including terrorist 
attacks, on the public. Public health would be safeguarded even if a 
terrorist attack damaged one of these facilities because of the 
mitigating actions of personnel and emergency response plans.
    Finally, we protect NRC personnel and contract staff and facilities 
through a comprehensive physical and personnel security program. This 
program includes the continual assessment and adjustment of physical 
security measures in response to Federal Government-wide advisories. In 
this regard, since September 11 we have increased our physical 
protection in a variety of areas, including the controls of access to 
NRC campuses by persons and vehicles. Most recently, we have taken 
measures to protect NRC mailroom employees from the biological threat 
posed by contamination by anthrax spores spread through the mail.
    In the aftermath of the terrorist attacks of September 11, 2001, 
and the continuing uncertainty about future terrorist intentions, the 
NRC is expanding its review of its safeguards and physical security 
program, even though we believe that the nuclear power plants and fuel 
cycle facilities that fall under NRC jurisdiction are among the best 
protected industrial sites in America. The nature of the attacks 
requires that the NRC's review include a comprehensive examination of 
the basic assumptions underlying the current safeguards and physical 
security program.
    Additionally, in light of the devastating September 11 attacks, and 
threats of unspecified future attacks against the United States, this 
review must involve other U.S. national security organizations. We 
currently are interacting with the FBI, other Federal law enforcement 
and intelligence organizations, the military, and the newly established 
Office of Homeland Security so that necessary changes to our programs 
consider pertinent information from all relevant Federal agencies. We 
believe it is essential that agencies coordinate their requirements for 
infrastructure security.
    We also are re-evaluating the agency's ability to communicate with 
the press, the public, and interested parties regarding information 
relevant to security and physical protection of our licensees. Prior to 
September 11, the NRC provided to the public via NRC's Website or its 
electronic ADAMS data base, most documents pertinent to its regulatory 
regime, including extensive information on individual plant design and 
operation. In light of the events of September 11, which showed that 
some of the information that the NRC had made available to the public 
via the Internet could be of potential use to terrorists, the NRC shut 
down public access to these electronically available documents and 
removed some documents from our Public Document Room. The NRC is now in 
the midst of a careful review to determine the material that should be 
electronically made available to the public. In recent days we have 
restored public meeting notices, pertinent information on agency 
rulemaking proceedings, electronic reading room material, and 
information on contracting opportunities. Substantially more 
information will be restored in the coming weeks. As part of its 
ongoing re-examination process, the agency is examining issues related 
to withholding from the public critical infrastructure information. If 
the NRC determines that additional authority is needed to protect such 
information, the NRC will seek the necessary legislation.
    As the Commission conducts its comprehensive reassessment of plant 
safeguards and security, we recognize that specific legislative needs 
may become apparent. In the interim, the Commission on June 22, 2001, 
submitted legislative proposals to your Committee that we believe we 
need now. Specifically, we are seeking legislation that would amend the 
Atomic Energy Act to enhance the protection provided by guards at 
designated NRC-licensed nuclear facilities, to criminalize sabotage of 
nuclear facilities during their construction, and to make clear that 
the unauthorized introduction of weapons or explosives into nuclear 
facilities will be subject to significant Federal criminal penalties 
for the individuals involved.
    We have also, since June 22, 2001, developed a fourth proposed 
statutory change which would confer upon guards at NRC designated 
facilities the authority to possess or use weapons that are comparable 
to the Department of Energy guard forces or other Federal protective 
forces. Some State laws, for instance, in New Jersey, currently 
preclude guard forces at NRC-regulated facilities from utilizing a wide 
range of weapons, which are available to the guard forces at other NRC-
regulated facilities in States without such restrictions. We would 
advocate a more uniform national system.
    We expect that our reassessment of commercial nuclear security and 
safeguards will strengthen our ability to improve our security 
requirements and programs, as needed. In considering potential 
legislative and regulatory changes, we must consider carefully the 
boundaries between private and government responsibility, and the 
delicate balance between openness and security. The balance between 
risk avoidance and risk mitigation must also be considered. These are 
difficult areas, but we are determined to address safeguards and 
security needs expeditiously in light of the September 11 events.
    In closing, I would like to reiterate that the NRC continues to 
fulfill its obligations to ensure adequate protection of the public 
health and safety from acts of sabotage, theft, or diversion directed 
at the Nation's civilian nuclear facilities and materials.
    We believe that we had an excellent security and physical 
protection program in place prior to September 11, and we are prepared 
to build on that solid foundation. We look forward to working with the 
Congress to address our mutual concerns and determine where the assets 
of our Nation are best deployed to fight these threats. I appreciate 
your invitation to be here today to discuss the NRC's programs and am 
prepared to answer your questions.
                               __________
Statement of Herbert L. Mitchell, Associate Administrator for Disaster 
             Assistance, U.S. Small Business Administration
    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, my name is Herb Mitchell, and I am the Associate 
Administrator for Disaster Assistance for the U.S. Small Business 
Administration (SBA). Administrator Barreto asked that I represent the 
Agency today in his absence. We thank the committee for the opportunity 
to testify about the disaster assistance program, and our role in the 
economic recovery for New York City.
    For the past 50 years, with any disaster that occurs in the United 
States, the SBA has played an immediate and major role in providing 
disaster assistance loans for businesses, homes, and personal property. 
This disaster, while different in scope, provides us the same 
opportunity to assist in the immediate recovery of the New York City 
region, and the Nation as a whole.
    In a major disaster SBA participates with FEMA in conducting damage 
assessment surveys to determine the scope of the damage and the 
assistance needed. Once the declaration is made SBA co-locates with 
FEMA at the Disaster Field Office to coordinate assistance to 
individuals and businesses, thus ensuring that Federal assistance is 
not duplicated. The FEMA telephone registration line serves as a one-
stop shop for Federal assistance, all businesses being referred to SBA 
for assistance. Additionally, SBA and FEMA will co-locate at disaster 
recovery centers to provide one-on-one assistance to disaster victims.
    The afternoon of September 11, our Niagara Falls, New York Disaster 
Area Office was dispatched to lower Manhattan, where they met with FEMA 
and the State emergency management officials to coordinate our response 
with the overall recovery effort. We also began working with Governor 
Pataki's office to set up an SBA office in the NY State Business 
Resource Center in Manhattan, where we met with disaster victims, 
discussed SBA loan programs, issued applications, and provided direct 
assistance on the application process. The SBA has since deployed 
approximately 93 people in the New York City area to complement its 
Disaster Area 1 staff of over 200, and hundreds of additional SBA 
disaster trained employees are available and on call in New York and 
nationwide if needed to supplement our efforts.
    The SBA's disaster assistance loan program is the primary Federal 
program for funding recovery for private-sector disaster victims. This 
program provides low interest rate loans (not to exceed 4 percent) to 
applicants without credit available elsewhere and a higher rate (not to 
exceed 8 percent) for those with credit available elsewhere. We offer 
real and personal property loans, physical disaster business loans, and 
economic injury disaster loans. Our real and personal property loans 
and physical disaster business loans are intended to assist people with 
their actual loss of property as a result of a disaster. The economic 
injury disaster loans are available to provide small businesses 
working-capital loans to help pay ordinary and necessary operating 
expenses that would have been payable absent the disaster. To 
complement these existing loan programs, the SBA, through its Disaster 
Area Office in New York, is working with New York's Empire State 
Development Agency and several private financial institutions to 
provide ``Bridge Loan'' and ``Gap Loan'' financing for the NYC business 
community. ``Bridge Loans'' are short-term loans that may be repaid by 
the long-term SBA disaster loan, and ``Gap Loans'' offer financing to 
disaster victims who are unable to qualify for SBA loans.
    In addition, Military Reservist Economic Injury Disaster loans are 
available to businesses that suffer an impact as a result of a key 
employee being called to duty as military reservists.
    We are also focusing on getting information to the individuals and 
businesses that have been affected. Our staff has canvassed the 
neighborhoods to talk to small business owners suffering from this 
tragedy in order to inform them of SBA assistance, and distribute loan 
application packets personally. Administrator Barreto and I joined SBA 
disaster staff in New York City on September 17th, and saw first hand 
the empty restaurants and stores that normally would have been packed 
prior to the disaster. While in New York City, we met one notable small 
business owner, who told us that the ``terrorists tried to declare a 
victory by destroying the World Trade Center buildings, but insisted 
they would not score a second victory by closing his (sic) business.'' 
This is the patriotism and the true American entrepreneurial spirit 
that we have seen in New York and across the country. America will 
recover and thrive, and the SBA is proud to operate at the heart of 
that recovery, making whole again those businesses that have suffered.
    As of October 31st, the SBA is proud to report its combined 
response to the New York disaster as follows:
    <bullet> We have distributed almost 17,400 applications, some door 
to door, in Lowe Manhattan and from 44 locations throughout the region;
    <bullet> We have Directly Counseled and assisted over 17,000 
individuals and businesses with loan applications or general 
information, incorporating Spanish, Mandarin Chinese, Croatian, Arabic, 
Hindu, Vietnamese, German, French, Korean and Japanese speaking 
counselors when necessary.
    <bullet> We have received and processed 3,200 completed 
applications;
    <bullet> We have approved nearly 1000 loans for $82,132,900.
    <bullet> We have staffed six full Disaster Information Field 
Offices, conducted several workshops in multiple neighborhood 
locations, and placed trained disaster loan personnel in 4 additional 
Small Business Development Center (SBDC) offices in the region.
    Under the agency's historic disaster loan program parameters, 
businesses eligible for SBA disaster loan products are physically 
located in direct proximity to the declared disaster location. The 
September 11 attacks have presented a unique situation in regard to the 
scope of the Administration's response.
    In recognition of the widespread financial difficulties faced by a 
number of small businesses around the country as a result of the 
September 11 terrorist attacks, the SBA has worked through the Bush 
Administration to expand its Economic Injury Disaster Loan Program. 
Effective October 22, 2001, businesses located outside of the declared 
disaster areas in New York and Virginia that have suffered substantial 
economic injury as a direct result of the September 11 attacks, or as a 
direct result of a Federal action related to the September 11 disaster 
are now eligible to apply for assistance through SBA's Economic Injury 
Disaster Loan program. These loans can help small businesses with 
working capital in order to meet its ongoing financial obligations.
    Mindful of the nature of the businesses located in lower Manhattan, 
we have also submitted legislation to increase our size standard 
regulations for NY businesses to qualify for our loan programs, and 
have made them retroactive to the September 11 date; allow financial 
services organizations and non-profits to qualify for loans, and to 
increase the cap on aggregate loans.
    SBA's disaster programs have evolved over the years to meet the 
needs of small businesses. They work well, meet the needs of the 
Nation's affected small business communities, and the mechanisms are 
already in place to handle additional services as necessary. We are 
confident that utilizing existing disaster loan programs and resources 
to assist the NYC small business community, and the Nation's as a 
whole, is the most immediate and effective way to aid in its' economic 
recovery from this disaster.
    In addition to our disaster loan program, SBA provides numerous 
short-and long-term loan programs to small businesses through our 
lending partners, such as Microloans, 7(a) guaranty loans, 504 loans 
and the Small Business Investment Company program. SBA's technical 
assistance includes business counseling and training through our 
Business Information Centers, Service Corps of Retired Executives, One 
Stop Capital Shops, Women's Business Centers and the SBDCs.
    We look forward to working with all of you to help the citizens of 
New York, as well as those around our country that refuse to let terror 
destroy what we have collectively worked so hard to build.
    I'm pleased to answer any questions.
    Thank you.
                               __________
Statement of Marianne Horinko, Assistant Administrator, Office of Solid 
                          Waste and Emergency
    Mr. Chairman and Members of the committee, thank you for the 
opportunity to discuss the Environmental Protection Agency's (EPA) role 
in domestic terrorism preparedness and, more specifically, the Agency's 
role in protection of the Nation's water resources.
    The tragic events of September 11, 2001, have raised valid concerns 
over our Nation's vulnerability to terrorist attack. As a Nation, we 
are scrutinizing our efforts to prepare for and to prevent terrorist 
events. Realizing that we must always remain vigilant to new threats 
and must always be ready to respond, the Agency welcomes the 
opportunity this hearing offers to examine these issues.
    My testimony covers four major areas: EPA's role in 
counterterrorism preparedness and response before and after September 
11; a specific discussion of drinking water protection related to the 
September 11 attack; EPA's overall protection of our Nation's drinking 
water; and the critical Federal coordination needed to meet the 
counterterrorism challenges ahead.
          the federal partners and ngo's: a unique partnership
    The National Response Team (NRT), established by the National 
Contingency Plan (NCP), consists of 16 Federal agencies with 
responsibilities, interests, and expertise in various aspects of 
emergency response to pollution incidents. The EPA serves as chair and 
the Coast Guard serves as vice chair of the NRT. This partnership 
includes such Federal agencies as the ATSDR (Agency for Toxic 
Substances and Disease Registry), DOD (Department of Defense), DOE 
(Department of Energy), FBI (Federal Bureau of Investigation), FEMA 
(Federal Emergency Management Agency) and key non-governmental 
organizations.
             september 11, 2001--emergency response actions
    Our Federal partnership sprung into action on September 11, 2001. 
Before the second plane had struck the World Trade Center in Manhattan, 
EPA headquarters had already begun coordination with our Region 2 
office to address the crash of the first plane. Ten minutes later, our 
EPA headquarters had linked all of our east coast regional offices to 
begin coordination and support of the New York response effort. EPA's 
Emergency Response Program was present onsite in New York, Virginia, 
and Pennsylvania within hours of the four plane crashes.
    Throughout the response effort, EPA worked in coordination with our 
Federal partners to monitor and protect human health and the 
environment from potential hazards associated with the three crash 
sites. At both The World Trade Center and the Pentagon, EPA provided 
monitoring for various air contaminants. For example, EPA and other 
Federal, State and city agencies have taken literally thousands of 
samples of dust, air, drinking water, stormwater runoff and river 
sediments in and around the World Trade Center site. We've tested for 
the presence of pollutants such as asbestos, lead, volatile organic 
compounds, dioxin, benzene, metals, PCBs and other chemicals and 
substances that could pose a threat to the public and workers at the 
site. Fortunately, EPA and OSHA have found no evidence of any 
significant public health hazard to residents, visitors, or workers 
beyond the immediate World Trade Center area. Despite recent press 
accounts which suggest otherwise, these findings have not changed. In 
fact, environmental conditions off the site have improved in recent 
weeks.
    In addition to our monitoring activities, at the World Trade 
Center, EPA assisted in debris removal, and cleanup of dust and debris 
from the streets using vacuum trucks. EPA has provided rescue workers 
and others onsite with protective gear and health and safety 
recommendations for the difficult conditions onsite. We have also set 
up washing stations for response workers at Ground Zero and vehicles 
and heavy equipment departing the Zone are being washed down prior to 
departure.
    Signs informing rescuers of the need to wear protective gear are 
posted throughout the washing stations.
                         epa's anthrax response
    I want to bring to your attention the increasing number of requests 
the Agency has received to provide assessment, sampling, and cleanup 
assistance at anthrax-contaminated buildings across the country. The 
dilemma we face is that the Superfund statutory language that allows us 
to respond to these biological releases also limits our ability to 
recover our response costs. To the extent these activities will 
continue, they will have an impact on our Superfund cleanup activities 
later in the year in certain parts of the country.
                  september 11, 2001--water protection
    Regarding water concerns associated with the crash site in 
Manhattan, EPA collected and tested drinking water at several 
distribution points. Following several days of heavy rain in New York, 
we collected water samples from storm sewers and surface runoff to 
determine if potential contamination from the World Trade Center site 
was entering the Hudson or East rivers. All samples of drinking water, 
which were tested for a wide range of contaminants, had levels below 
Federal standards. Analysis of runoff following heavy rain on September 
14 did show some elevated levels of PCBs and other pollutants. Followup 
sampling on several occasions found levels back to those normally found 
in area waters.
                      water protection task force
    Recognizing the need to ensure appropriate coordination of water 
security activities, EPA has established a Water Protection Task Force 
that will guide efforts on long-term drinking water infrastructure 
protection and wastewater treatment infrastructure protection.
    Governor Whitman announced some specific projects to Protect 
America's Drinking Water:
    <bullet> The Administration has requested $34.5 million as part of 
the terrorism supplemental appropriations for support of vulnerability 
assessments for drinking water systems and $5 million for State grants 
for drinking water counterterrorism coordinators to work with EPA and 
drinking water systems.
    <bullet> With EPA support, the Sandia National Laboratory of the 
Department of Energy in partnership with the American Water Works 
Association Research Foundation is developing a ``tool kit'' to assist 
drinking water systems in conducting vulnerability assessments and 
identifying remedial action.
    <bullet> We expect training on this resource to be available later 
this month. As an interim measure, EPA has disseminated a fact sheet 
that outlines measures utilities can take immediately to protect their 
drinking water supplies. Issued through the State drinking water 
program managers, this document should now be in the hands of every 
public water system.
    <bullet> As this ``tool kit'' is being developed, the American 
Water Works Association Research Foundation is drafting additional, 
more detailed training materials that will provide step-by-step 
guidance to drinking water utilities on conducting vulnerability 
assessments, identifying remedial actions and strengthening their 
emergency operation plans. Formal training sessions that will take 
utility security officials through the first steps of their 
vulnerability assessments will begin in December.
    <bullet> Training others to conduct vulnerability assessments will 
be an integral component of this effort. Consequently the Agency 
envisions that a significant cadre of professionals will be available 
to assist systems in doing these vulnerability assessments.
    These activities focus on enhancing preparedness of water 
utilities; other projects will bolster the existing methods for 
responding to emergency situations, including terrorist acts. 
Currently, a drinking water utility would activate its existing 
emergency response plan with its local police and State emergency 
officials. If needed, these provide for shutting down the system, 
notifying the public of any emergency steps they might need to take 
(e.g., boiling water) and providing alternate sources of water. EPA's 
extensive network of expert emergency response personnel can be 
dispatched to the scene immediately to support local communities.
                   epa's counterterrorism activities
    As EPA continues to strengthen its counterterrorism (CT) program by 
building on the existing National Response System for hazardous 
materials (hazmat) prevention, preparedness, and response, the Agency 
is involved in a variety of activities with Federal, State, and local 
officials that include:
    <bullet> Requesting $5.5 million in the terrorism supplemental 
appropriations to establish and equip a West Coast response team.
    <bullet> In the 10 EPA regions, the Agency's first responders are 
the On-Scene Coordinators (or OSCs). The OSCs have been actively 
involved with local, State, and Federal authorities in preparing for 
and responding to threats of terrorism. EPA's OSC's, located throughout 
the United States, have broad response authority and a proven record of 
success in responding rapidly emergency situations.
    <bullet> Providing expertise in performing offsite monitoring, 
extent of contamination surveys, working with health officials to 
establish safe cleanup levels conducting protective cleanup actions.
    <bullet> Communicating technical information or health data to 
affected citizens is essential for a successful Federal response to an 
act of terrorism that involves a release of chemical, biological, or 
radioactive material. EPA brings unique capabilities and experience to 
the response process.
    <bullet> Expanding work with State Emergency Response Commissions 
(SERCs) and Local Emergency Planning Committees (LEPCs) to develop 
emergency response plans for hazardous materials releases to encourage 
them to incorporate terrorism response issues into their existing 
emergency plans.
    <bullet> Working closely with other Federal agencies to refine 
interagency response plans for terrorist attacks.
    <bullet> Conducting forensic evidence collection on nonmilitary 
industrial chemicals in the event of an eco-terrorism event by EPA's 
National Enforcement Investigations Center (NEIC) and training State, 
local, and Federal personnel in this type of work.
                               conclusion
    Finally, Mr. Chairman, I would like to emphasize that the 
Administrator, Governor Whitman, has made very clear to the entire 
Agency that there is no higher priority than ensuring that EPA's 
mission to protect the environment and public health is a broad 
umbrella that encompasses homeland security. The expertise and 
experience the Agency has developed over 31 years is poised to assist 
and support the hard work Governor Ridge and this Congress will be 
doing.
    Clearly, the Administrator is adamant that EPA's efforts to help 
secure the safety and integrity of America's water supply and 
infrastructure must be undertaken with great speed, energy, and 
attention. Deadlines that were established before September 11 for such 
action are no longer appropriate. We have no time to waste in 
completing this work and we intend to devote the resources necessary to 
make certain that it is done quickly and that it is done properly.
    Governor Whitman, myself, and our professionals throughout EPA 
welcome the opportunity to work with you, your colleagues in the 
Congress, your professional staff, and with Governor Ridge and the 
Office of Homeland Security to protect and preserve the health and well 
being of every American citizen.
  

                                <greek-d>

</pre></body></html>
